<html>
<title> - OVERSIGHT OF FEDERAL PROGRAMS FOR EQUIPPING STATE AND LOCAL LAW ENFORCEMENT AGENCIES</title>
<body><pre>[Senate Hearing 113-767]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-767
 
                     OVERSIGHT OF FEDERAL PROGRAMS
         FOR EQUIPPING STATE AND LOCAL LAW ENFORCEMENT AGENCIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 
                      U.S. GOVERNMENT PUBLISHING OFFICE
   92-902 PDF                  WASHINGTON : 2016       
 _________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
       Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
 
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin. Staff Director
               John P. Kilvington, Deputy Staff Director
                    Mary Beth Schultz, Chief Counsel
          Jason T. Barnosky, Senior Professional Staff Member
                Robert H. Bradley, Legislative Assistant
                          Cathy C. Yu, Counsel
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
                  Andrew C. Dockham, Minority Counsel
            Justin Rood, Minority Director of Investigations
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator McCaskill............................................     4
    Senator Johnson..............................................    21
    Senator Baldwin..............................................    24
    Senator Paul.................................................    27
    Senator Ayotte...............................................    29
Prepared statements:
    Senator Carper...............................................    55
    Senator Coburn...............................................    57
    Senator McCaskill............................................    58
    Senator Landrieu.............................................    62

                               WITNESSES
                       Tuesday, September 9, 2014

Hon. Alan F. Estevez, Principal Deputy Under Secretary of Defense 
  for Acquisition, Logistics, and Technology, U.S. Department of 
  Defense........................................................     8
Brian E. Kamoie, Assistant Administrator for Grant Programs, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security..............................................     9
Karol V. Mason, Assistant Attorney General, Office of Justice 
  Programs, U.S. Department of Justice...........................    11
Jim Bueermann, Chief (Ret.), Redlands, California, and President, 
  Police Foundation..............................................    34
Peter B. Kraska, Ph.D., Professor, School of Justice Studies, 
  University of Eastern Kentucky.................................    35
Mark Lomax, Executive Director, National Tactical Officers 
  Association, accompanied by Major Ed Allen, Seminole County 
  Sheriff's Office...............................................    37
Wiley Price, Photojournalist, The St. Louis American Newspaper...    39
Hilary O. Shelton, Washington Bureau Director and Senior Vice 
  President for Policy and Advocacy, National Association for the 
  Advancement of Colored People..................................    40

                     Alphabetical List of Witnesses

Bueerman, Jim:
    Testimony....................................................    34
    Prepared statement...........................................    91
Estevez, Hon. Alan F.:
    Testimony....................................................     8
    Prepared statement...........................................    66
Kamoie, Brian E.:
    Testimony....................................................     9
    Prepared statement...........................................    73
Kraska, Peter B. Ph.D.:
    Testimony....................................................    35
    Prepared statement...........................................    99
Lomax, Mark:
    Testimony....................................................    37
    Prepared statement with attachments..........................   107
Mason, Karol V.:
    Testimony....................................................    11
    Prepared statement...........................................    86
Price, Wiley:
    Testimony....................................................    39
    Prepared statement...........................................   209
Shelton, Hilary O.:
    Testimony....................................................    40
    Prepared statement...........................................   210

                                APPENDIX

Additional statements for the Record:
    Boston Globe Article.........................................   218
    DOD 1033 Program Fact Sheet..................................   224
    Document submitted by Senator McCaskill......................   230
    Pictures submitted by Senator McCaskill......................   233
    Information submitted by Senator Baldwin.....................   259
    American Civil Liberties Union...............................   267
    American Psychological Assocation............................   376
    Conference of Mayors.........................................   385
    Fraternal Order of Police....................................   387
    Major County Sheriffs........................................   393
    Mound City Bar Association...................................   403
    NAACP Legal Defense and Educational Fund, Inc................   404
    National Association of Police Organizations, Inc............   414
    Norm Stamper, Seattle Chief of Police (Ret.).................   416
Responses to post-hearing questions for the Record:
    Mr. Estevez..................................................   424
    Mr. Kamoie...................................................   463
    Ms. Mason....................................................   480
    Mr. Bueerman.................................................   510
    Mr. Kraska...................................................   515
    Mr. Lomax....................................................   520
    Ms. Shelton..................................................   527


                     OVERSIGHT OF FEDERAL PROGRAMS



             FOR EQUIPPING STATE AND LOCAL LAW ENFORCEMENT

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:31 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Landrieu, McCaskill, Baldwin, 
Coburn, Johnson, Paul, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order. We want to 
welcome all of our guests this morning. We especially want to 
welcome our witnesses, the first panel and our second panel.
    One month ago today, an unarmed young man named Michael 
Brown was shot and killed by a local policeman in the town of 
Ferguson, Missouri. It has been stated that the officer was 
acting in self-defense. While the incident remains under 
investigation, this much is known. It has caused very real pain 
for Mr. Brown's family, as well as for many residents of 
Ferguson and for others across our country. The events that 
unfolded in Ferguson have sparked a much needed national 
discussion on a range of issues, including police strategy, law 
enforcement response to civil protest and unrest, and race 
relations. The purpose of today's hearing, though, is not to 
explore what happened in Ferguson on that fateful day or to 
assign blame. That is the responsibility of our judicial 
system.
    Rather, the purpose of today's hearing is to examine the 
effectiveness of Federal programs that provide State and local 
police with surplus military equipment and grant funding for 
equipment, exercises, planning, and training. The issues we 
will be discussing today are not just about Ferguson. They 
affect communities across our Nation. As we take a deep dive 
into the Federal programs that help equip State and local law 
enforcement agencies, we want to explore the value of these 
programs to police, the communities they serve, and especially 
to taxpayers.
    I want to just start off by thanking Senator McCaskill and 
her staff for all of their efforts in organizing this hearing 
and for co-chairing it with me. Our colleague from Missouri has 
spent a great deal of time in Ferguson this past month 
examining these issues, and we look forward to learning from 
her firsthand experiences. Claire, I want to thank you for your 
leadership during this difficult time and, for all that you 
have done to help our country move forward and learn from what 
you and your fellow Missourians have been grappling with.
    During the weeks that followed the shooting of Michael 
Brown, national media attention focused on the protests, 
including the response by local law enforcement. Many questions 
rightfully have been posed by local leaders, by civil rights 
organizations, by police associations, law enforcement experts, 
and others on whether the police response was correct, 
measured, and appropriate.
    In thinking about these issues we will be discussing today, 
I cannot help but think about how, in my own home State of 
Delaware, we are learning all over again the value of our 
police spending more time outside of their police cars, working 
and talking every day with people in the community and engaging 
them in positive ways. As you might imagine, this helps build 
the bonds of trust that strengthen communities in ways that 
armored personnel vehicles and assault weapons never can.
    We have convened today to examine the Federal Government's 
role in helping State and local police do their important work. 
Since 1997, Federal agencies have supplied over $5 billion in 
surplus Department of Defense (DOD) supplies and equipment to 
law enforcement. In addition, both the Departments of Justice 
(DOJ) and Homeland Security (DHS) administer grant programs 
that also can pay for military-style gear such as armored vests 
and vehicles.
    In light of the events in Ferguson, our Committee has 
reviewed the role of Federal agencies in providing equipment, 
supplies, and weapons to State and local law enforcement. Our 
staff has received briefings from the agencies and has reviewed 
key documents. This review by Congress is long overdue. The 
Federal witnesses with us today will describe the programs that 
can supply tactical and military-style equipment and weapons to 
law enforcement and the current oversight requirements and 
procedures. We will hear from a second panel of witnesses with 
critical knowledge and opinions on these programs, including 
some with law enforcement backgrounds.
    We will explore the proper roles and techniques for using 
this equipment. We will also examine whether Congress should do 
more to monitor and hold accountable the police departments 
that obtain sophisticated equipment. These programs were 
established with a very good intention: to provide equipment 
that would help law enforcement perform their duties. The 
question is whether what our police receive matches what they 
truly need to uphold the law.
    We need to acknowledge that there have been instances where 
police have been outgunned by heavily armed criminals, 
including organized crime and gangs. In addition, we all 
remember well how helpful some of these programs were to enable 
police to perform extraordinarily well in the aftermath of the 
Boston Marathon bombing. But for these programs, the response 
would not have been as fast or as effective.
    Of course, the job of law enforcement is to protect the 
lives and the well-being of the people of our Nation. Equally 
important, the job of law enforcement is the protection of our 
civil rights. So we will also hear from witnesses with 
expertise on the civil rights issues that arise as a result of 
these programs.
    It is my hope that we in Congress and other government 
leaders learn from what is discussed during today's hearing and 
from the ongoing developments in Ferguson and in similar 
situations across the country. In closing, we are here today 
because we have responsibility to ensure accountability of 
funds and equipment provided by the Federal Government to State 
and local police. It is our job to ensure that these programs 
provide value to police, to the communities they serve, and to 
taxpayers.
    Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Good morning, and thank you to our 
witnesses for appearing, both this panel and the second one. 
And thank you to the Chairman for convening this hearing.
    As I look at my short time left remaining in Congress, and 
having traveled for 2 weeks in Oklahoma in August, I am brought 
constantly and frequently back to the position of our 
Founders--and not only their vision but their wisdom.
    Protect and Serve. Our Founders saw no role for the Federal 
Government in State and local police forces. None. And yet what 
we have seen is, on the basis of what we saw on 9/11, what 
seems to be an overreaction and a progress toward the Federal 
Government and law enforcement is doing the same thing it has 
done in every other area when it comes to the General Welfare 
Clause and the Commerce Clause. And we are on dangerous ground 
of undermining the very principles that built the country.
    It is hard to see a difference between the militarized and 
increasingly federalized police force we see in towns across 
America today and the force that Madison had in mind when he 
said, ``a standing military force with an overgrown executive 
will not long be a safe companion to liberty.''
    I have some real heartburn with not just the 1033 program, 
with the Urban Area Security Initiative (UASI) grants, with 
some of the Justice Department grants, and with a lot of the 
homeland security grants in terms of how they have been 
utilized, what they have been utilized for. And so I look 
forward to hearing from our witnesses. I have some significant 
questions. The 1033 program has been around a long time. It was 
not just in response to 9/11. But I think we need to have a 
good airing. We need to re-center where we are.
    There is no role for the Federal Government in the local 
and State police forces in our country. And I hope we can 
winnow that out today to see where we have stepped across the 
line and actually have created some problems that would not 
have been there otherwise.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you, Dr. Coburn.
    Once she has given her opening statement, I am going to ask 
Senator McCaskill to introduce our witnesses, and we will look 
forward to that. I will lead off the questioning. I am going to 
have to leave just a little before 11:15 for a meeting in the 
Capitol. I am going to try to get back. But in the meantime, 
you are chairing. Thanks very much.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Chairman Carper. I want to 
thank both you and Dr. Coburn for the interest you have shown 
in today's hearing. I know your decision to elevate this 
hearing to the full Committee level is a sign of your 
commitment to oversight in these very important areas, and I am 
very appreciative of the fact that it has been elevated to the 
full Committee.
    I first approached Chairman Carper to hold this hearing 
because of the shock and sadness I felt as I saw events 
unfolding in Ferguson, Missouri, in the weeks following the 
death of Michael Brown. I heard reports and saw firsthand about 
aggressive police actions being used against protesters under 
the umbrella of ``crowd control'' and not in response to 
violence. Like many of you, I saw armored vehicles with a 
sniper pointing a rifle at an unarmed protester on a warm 
summer afternoon.
    I think most Americans were uncomfortable watching a 
suburban street in St. Louis being transformed with vivid 
images, powerful images, across this country into a war zone, 
complete with camouflage, tear gas, rubber bullets, armored 
vehicles, and laser sights on assault weapons.
    While this hearing may reveal many strong arguments why 
some of this equipment may be helpful for the safety of police 
officers in certain situations, I am confident that militarized 
policing tactics are not consistent with the peaceful exercise 
of First Amendment rights of free speech and free assembly. 
Those lawful, peaceful protesters on that Wednesday afternoon 
in Ferguson, Missouri, did not deserve to be treated like enemy 
combatants. I am hoping that what happened in Ferguson and what 
we learn at this hearing today will inform a better public 
policy that will protect our constitutional freedoms and also 
provide adequate public safety for the brave men and women who 
put on a uniform every day to protect the people of this great 
Nation through our very admirable rule of law.
    The Federal Government has played a significant role in 
enabling police departments across the country to acquire the 
military weapons, vehicles, and other types of equipment we saw 
used in Ferguson. The Department of Defense's 1033 program, 
which was authorized in its current form in 1997, gives away 
DOD surplus equipment for free to State and local law 
enforcement. Much of the equipment from the program is as 
mundane as office furniture and microwaves. But the Department 
of Defense is also giving local law enforcement million dollar 
tactical vehicles, including its mine-resistant ambush 
protected vehicles (MRAPs). They are heavily armored vehicles 
built to withstand roadside bombs and improved explosive 
devices (IEDs). These are vehicles so heavy that they can tear 
up roads, and the Department of Defense knows this. Yet it 
continues to provide these vehicles to local law enforcement 
agencies across the Nation.
    According to information provided by the Department of 
Defense, in just the last 3 years, the Department of Defense 
has given 624 MRAPs to State and local law enforcement 
agencies, seemingly without regard to need or size of the 
agency that has received them. At least 13 law enforcement 
agencies with fewer than 10 full-time sworn officers received 
an MRAP in the last 3 years. The number of MRAPs in the 
possession of local police and sheriff departments is now far 
higher than the MRAPs in possession of our country's National 
Guard.
    In Texas, for example, local law enforcement agencies have 
73 MRAPs. The National Guard has only six. In Florida, local 
law enforcement agencies have 45 MRAPs. The National Guard has 
zero. I would like to ask unanimous consent that the 
information provided me from the Defense Department be included 
in the hearing record today.\1\
---------------------------------------------------------------------------
    \1\ The information provided by the Department of Defense appears 
in the Appendix on page 224.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator McCaskill. And also, the Department of Justice 
information received about consent decrees into the record.\2\
---------------------------------------------------------------------------
    \2\ The information from the Department of Justice and submitted by 
Senator McCaskill appears in the Appendix on page 230.
---------------------------------------------------------------------------
    Chairman Carper. Without objection.
    Senator McCaskill. I question whether State and local law 
enforcement agencies need this kind of equipment and certainly 
whether they need it more than our States' National Guards. One 
of the key lessons learned throughout the Iraq and Afghanistan 
wars was the idea that we had to win hearts and minds, and one 
of the ways the military tried to do that was by acting more 
like a police force, working with communities, helping to 
repair broken windows and damaged property, and trying to 
appear less militaristic with their presence in the 
communities. I, therefore, find it ironic that at the same time 
we are embracing those tactics as strong evidence of progress 
against a counterinsurgency, we are, in fact, underlining the 
militarization of our domestic police departments.
    I also have questions about why the Defense Department is 
giving away some of this material. According to the Defense 
Logistics Agency (DLA)--and we will have a witness from that 
agency testify momentarily--approximately 36 percent of the 
equipment that is given away to law enforcement is brand new.
    Now, we will give you a chance to counter that. That was in 
the information we received from DLA.
    Even if it is not 36 percent, if any of it is brand new, 
then there is a real question about what are we doing. Why are 
we buying things in the Department of Defense merely to turn 
around and give them away?
    All of it--weapons, tactical equipment, office supplies--is 
still usable, and identical or similar items will be needed and 
bought new by the Defense Department again. It does not appear 
that buying new equipment to give it away and then spending 
money to replace it is an effective use of the Defense 
Department's resources.
    Local law enforcement agencies are also requiring military-
type equipment using grants from the Department of Justice and 
the Department of Homeland Security. In fiscal year (FY) 2014, 
the Department of Homeland Security made available over $400 
million under its State Homeland Security Program and another 
$587 million under its Urban Area Security Initiative Grant 
Program. Although these grants cannot be used to buy weapons, 
they can and do fund the purchase of armored vehicles and 
tactical equipment. And the Department of Justice Byrne Justice 
Assistance Grant (JAG) Program, which received $376 million in 
appropriations in fiscal year 2014, gives State and local law 
enforcement agencies funding that can be used from everything 
from mobile data terminals, lethal and non-lethal weapons, to 
office supplies and uniforms, and to provide the maintenance 
funds to maintain the expensive vehicles that have been given 
them by the Department of Defense.
    These grant programs provide important assistance to State 
and local law enforcement agencies. However, it is impossible 
to tell how these Federal funds are being spent because 
Department of Homeland Security and Department of Justice do 
not track the purchases or keep adequate data. So we just 
cannot know from asking these agencies how much military 
equipment or anything else that local law enforcement agencies 
are actually buying. In fact, it is possible that either or 
both of these programs are funding police departments to, in 
fact, as I mentioned previously, maintain and sustain the same 
equipment they are getting for free from another Federal 
agency.
    I am confident that many police departments are creating 
policies and providing training to ensure that any use of force 
is necessary and appropriate, and we must do everything we can 
to make sure that our law enforcement officers--those brave men 
and women who have sworn to protect us--have the equipment they 
need to maximize their own safety. But we also have to 
acknowledge that giving military-grade vehicles and weapons to 
every police officer and police force in America comes with 
costs, both in ways officers are perceived and the way this 
equipment is used.
    Officers dressed in military fatigues will not be viewed as 
partners in any community. Armored military vehicles, even if 
they are painted black and used with the utmost discretion, 
are, by definition, intimidating. And supplying communities 
with the capacity to acquire military equipment with no 
requirement that the officers are trained on the proper use of 
the equipment, little visibility in he actually needs or 
capabilities of local forces, and inadequate guidelines 
directing their use may just be asking for the kind of 
overmilitarization that we saw on some days and evenings in 
Ferguson.
    I was happy to hear that the White House has launched its 
own review of the programs and policies that have driven police 
militarization in this country, and I look forward to the 
results of that review. However, I understand that many of 
these issues may only be solved by legislation. I plan to build 
on what I learn today, together with my colleagues on this 
Committee, and to work with my fellow Senators in the coming 
weeks on legislation that will address the many public policy 
concerns that I am confident will arise in today's hearing.
    I thank the witnesses for being here today. I certainly 
thank the Chairman and Ranking Member for their calling of this 
full Committee hearing, and we look forward to the testimony of 
the witnesses.
    Chairman Carper. Senator McCaskill, thank you again for 
your efforts in this whole incident and everything that flows 
from it.
    If you would go ahead and just briefly introduce the 
witnesses, they all can testify, and then I will ask the first 
question, yield to Dr. Coburn, and then Senator McCaskill will 
be on her way. Thank you.
    Senator McCaskill. Our first witness is Alan Estevez. He is 
the Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics at the U.S. Department 
of Defense. Mr. Estevez has managed military logistics, 
acquisitions, and supplies for the Department of Defense in 
various capabilities since 2002 and has overseen military 
acquisitions worth more than $170 billion. Mr. Estevez has 
worked with the Office of the Secretary of Defense since 1981.
    Brian Kamoie is the Assistant Administrator for Grant 
Programs for the Federal Emergency Management Agency (FEMA). 
Mr. Kamoie oversees more than $17 billion in grant programs to 
build, sustain, and improve our national capability to prepare 
for, protect against, respond to, recover from, and mitigate 
all hazards. Mr. Kamoie previously served on the White House 
National Security staff and with the Department of Health and 
Human Services (HHS) on hazard preparation.
    Karol Mason is the Assistant Attorney General, Office of 
Justice Programs (OJP). Ms. Mason oversees an annual budget of 
more than $2 billion dedicated to supporting State, local, and 
tribal criminal justice agencies, an array of juvenile justice 
programs, a wide range of research, evaluation, and statistical 
efforts, and comprehensive services for crime victims. Ms. 
Mason previously oversaw the Office of Justice Grant Programs 
as Deputy Associate Attorney General.
    We would like to thank you for appearing today, and we look 
forward to your testimony. Mr. Estevez, you may begin.
    Senator Landrieu. Mr. Chairman.
    Chairman Carper. Senator Landrieu.
    Senator Landrieu. Because I have a conflict later this 
morning, can I submit a statement for the record,\1\ please?
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Landrieu appears in the 
Appendix on page 62.
---------------------------------------------------------------------------
    Chairman Carper. Certainly.
    Senator Landrieu. Thank you. And I want to associate myself 
with the remarks of Senator McCaskill and thank her for her 
leadership.
    Chairman Carper. You bet.
    All right. Mr. Estevez, please proceed. Your entire 
statement will be made part of the record. Just feel free to 
summarize. If you go much over 5 minutes, we will have to rein 
you in. Thank you. We are glad you are here.

  TESTIMONY OF THE HON. ALAN F. ESTEVEZ,\1\ PRINCIPAL DEPUTY 
   UNDER SECRETARY OF DEFENSE FOR ACQUISITION, LOGISTICS AND 
             TECHNOLOGY, U.S. DEPARTMENT OF DEFENSE

    Mr. Estevez. Thank you, Mr. Chairman, Senator Coburn, 
Senator McCaskill, and Members of the Committee. Thank you for 
the opportunity to appear before the Committee and discuss the 
Department's transfer of excess military property to law 
enforcement agencies. I appreciate the Committee's support of 
the Department and your continued interest in ensuring the 
success of our mission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Estevez appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    Following the events in Ferguson, Missouri, I believe it is 
appropriate that we address the issues regarding the equipping 
of police forces. As you note, my written testimony has more 
detail, and I submit it to the record.
    The transfer of excess property to law enforcement agencies 
is a congressionally authorized program designed to ensure good 
stewardship over taxpayer resources. The program has provided 
property that ranges from office equipment and supplies to 
equipment that augments local law enforcement capabilities and 
enhances first responders during natural disasters.
    More than 8,000 Federal and State law enforcement agencies 
actively participate in the program across 49 States and three 
U.S. territories. More than $5.1 billion of property has been 
provided since 1990.
    A key element in both the structure and execution of the 
program is the State Coordinator, who is appointed by their 
respective State Governor. State Coordinators approve law 
enforcement agencies within their State to participate in the 
program and review all requests for property submitted by those 
agencies along with a statement of intended use. Working 
through State Coordinators, law enforcement agencies determine 
their need for different types of equipment, and they determine 
how it is used. The Department of Defense does not have the 
expertise in police force functions and cannot assess how 
equipment is used in the mission of individual law enforcement 
agencies.
    Within the past 12 months, law enforcement agencies 
received approximately 1.9 million pieces of excess equipment: 
1.8 million pieces of non-controlled or general property--that 
would be office-type equipment--and 78,000 pieces of controlled 
property. That is property that is more tactical in nature. 
Non-controlled items range from file cabinets to medical kits, 
generators to tool sets. Law enforcement agencies currently 
posses 460,000 pieces of controlled property that they have 
received over time. Examples of controlled property include 
over 92,000 small arms, 44,000 night vision devices, 5,200 high 
mobility, multi-purpose wheeled vehicles (HMMWVs), and 617 
mine-resistant ambush protected vehicles. The Department does 
not provide tanks, grenade launchers, sniper rifles, crew-
served weapons, or uniforms.
    DOD has provided two HMMWV, one generator, and one cargo 
trailer to the Ferguson Police Department. Additionally, DOD 
has provided to St. Louis County Police Departments 6 pistols, 
12 rifles, 15 weapons sights, 1 explosive ordnance disposal 
robot, 3 helicopters, 7 HMMWVs, and 2 night vision devices.
    Property obtained through this program has been used 
extensively in both protection of law enforcement officers and 
the public as well as for first responder disaster relief 
support. For example, during the height of Superstorm Sandy, 
New Jersey police drove two cargo trucks and three HMMWVs 
through water too deep for commercial vehicles to save 64 
people. In Wisconsin, Green Bay police used donated computers 
for forensic investigations. During a 2013 flood in Louisiana, 
Livingston Parish police used six HMMWVs to rescue 137 people. 
In Texas, armored vehicles received through the program 
protected police officers during a standoff and shootout with 
gang members.
    The Department is participating in the administration's 
Interagency Review of Federal Programs for Equipping State and 
Local Law Enforcement Agencies to ensure that equipment 
provided is appropriate to their needs, while enhancing the 
safety of law enforcement personnel and their communities. We 
will alter our procedures and propose any legislative changes 
we believe necessary that come as a result of that review.
    In summary, the congressionally authorized 1033 program 
provides property that is excess to the needs of the Department 
of Defense for use by agencies in law enforcement, counter-
drug, and counterterrorism activities. It enables first 
responders and others to ensure the public's safety and save 
lives. The Department of Defense does not push equipment on any 
police force. State and local law enforcement agencies decide 
what they need and access our excess equipment through their 
respective State Coordinators.
    Thank you again for the opportunity to discuss the 
Department's transfer of excess military property. The 
Department is ready to work with Congress to review the program 
scope and mission. I look forward to answering your questions.
    Chairman Carper. Thank you, Mr. Estevez. Mr. Kamoie.

 TESTIMONY OF BRIAN E. KAMOIE,\1\ ASSISTANT ADMINISTRATOR FOR 
   GRANT PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kamoie. Good morning, Chairman Carper, Chairman 
McCaskill, Ranking Member Coburn, and Members of the Committee. 
I am Brian Kamoie, Assistant Administrator of the Federal 
Emergency Management Agency, the Department of Homeland 
Security. On behalf of Secretary Johnson and Administrator 
Fugate, it is my pleasure to appear before you today to discuss 
the Department's Homeland Security preparedness grant programs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kamoie appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    Recent events in Ferguson, Missouri, have raised questions 
regarding the use of Federal grant funds by State and local 
authorities, especially the use of funds by law enforcement 
agencies. These events have also raised questions regarding the 
Department's oversight of these funds. I hope that my 
appearance before you today will help answer those questions.
    As you know, the Department's preparedness grant programs 
assist communities across the Nation to build and sustain 
critical capabilities to prevent, protect, mitigate, respond 
to, and recover from acts of terrorism and other catastrophic 
events. As a result of your support and investments and the 
work of our partners throughout our country, our national 
preparedness capabilities have matured, which is a key finding 
of the Department's third annual National Preparedness Report 
released last month.
    The response to the 2013 Boston Marathon bombing 
demonstrated how preparedness grant investments have improved 
capabilities. The activities supported by grant funding--the 
planning, organization, equipment, training, and exercises--all 
came together to enable the emergency response. Grant funded 
equipment such as the forward-looking infrared camera on a 
Massachusetts State Police helicopter enabled the apprehension 
of Dzhokhar Tsarnaev, while enhancing the personal safety of 
law enforcement officers and protecting public safety.
    What happened in Ferguson, Missouri, has prompted a 
national dialogue that goes well beyond the Department and its 
grant programs. In mid-August, President Obama ordered a review 
of Federal programs that support State, local, and tribal law 
enforcement agencies. We at the Department of Homeland Security 
look forward to contributing to this effort and to the insights 
it will provide.
    The Homeland Security Grant Program, including the State 
Homeland Security Grant Program and Urban Area Security 
Initiative, is the primary Homeland Security Grant Program that 
supports State, local, and tribal communities, including the 
law enforcement community. Funds under these programs are 
awarded directly to States or tribes, which in turn manage, 
distribute, and track the funding. Thus, we work closely with 
and rely upon States and tribes to conduct oversight of the 
programs, and we monitor compliance with reporting and other 
program requirements. These programs are also audited by the 
Department's Inspector General (IG) and by States for the State 
and Urban Areas programs.
    Under the Homeland Security Act, States are required to 
distribute 80 percent of the funds awarded under the State 
program to local communities within their State. The act also 
requires the Department to ensure that at least 25 percent of 
the combined funds allocated under the State and Urban Areas 
programs are used for law enforcement terrorism prevention 
activities. These activities include the purchase of equipment. 
Grant recipients must purchase equipment listed on the 
Department's Authorized Equipment List, which outlines 21 
categories of allowable equipment. The Department prohibits the 
use of grant funds for the purchase of lethal or non-lethal 
weapons and ammunition. These equipment categories are not on 
the Authorized Equipment List.
    Homeland Security grant funds may be used to purchase 
equipment that can be classified as personal protective 
equipment, such as ballistics protection equipment, helmets, 
body armor, and ear and eye protection. Response vehicles, such 
as Bearcats, are also allowed. The Homeland Security Act allows 
equipment purchased with grant funds, including personal 
protective equipment, to be used for purposes unrelated to 
terrorism so long as one purpose of the equipment is to build 
and sustain terrorism-based capabilities.
    The Authorized Equipment List also notes that ballistic 
personal protective equipment purchased with grant funds is not 
for riot suppression.
    The Department has worked with Missouri officials and 
searched our own data to identify equipment purchased with 
preparedness grant funds. We will continue our discussions with 
Missouri officials to determine which specific items may have 
been deployed to Ferguson.
    In reviewing the use of those grant funds, the Department 
will make every effort to evaluate whether the use was 
appropriate under grant program rules. This includes the 
requirement and assurance that Federal grant funds not be used 
to engage in any conduct that is contrary to any Federal, 
State, or local law.
    The Department considers oversight of grant programs a 
priority and takes this responsibility very seriously. The 
Department's financial and programmatic grant monitoring 
provides a systematic means of ensuring oversight, 
accountability, and proper management of preparedness funds. We 
strive continually to improve the Department's oversight of 
these funds.
    Chairman Carper, Chairman McCaskill, Ranking Member Coburn, 
and Members of the Committee, this concludes my statement. I 
appreciate the opportunity to discuss these important issues 
with you, and I look forward to responding to any questions you 
may have.
    Chairman Carper. Mr. Kamoie, thanks so much for that 
testimony.
    Ms. Mason, please proceed. Make sure that your mic is on, 
please.

  TESTIMONY OF KAROL V. MASON,\1\ ASSISTANT ATTORNEY GENERAL, 
     OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE

    Ms. Mason. Good morning. Chairman Carper, Ranking Member 
Coburn, Senator McCaskill, and distinguished Members of the 
Committee, thank you for inviting me to speak with you today 
about the Department of Justice's role in supporting State and 
local law enforcement agencies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mason appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    Recent events in Ferguson, Missouri, have raised concerns 
about whether State and local law enforcement's use of 
military-type equipment and tactical training should be more 
closely examined. As President Obama has said, the laws of the 
United States mandate a clear distinction between our national 
armed forces and civilian State and local law enforcement. To 
help maintain that distinction while ensuring that civilian law 
enforcement departments have access to state-of-the-art 
equipment and training, Congress has authorized the Department 
of Justice to administer programs and funding to help State, 
local, and tribal law enforcement agencies safeguard their 
communities, while also protecting the civil liberties of their 
citizens.
    As Assistant Attorney General of the Office of Justice 
Programs, I am responsible for overseeing a range of activities 
designed to support law enforcement. Our work with law 
enforcement agencies is part of our overall mission to provide 
leadership, information, and other assistance to strengthen 
community safety and ensure the fair administration of justice.
    One of our largest programs and the leading source of 
Federal funding for law enforcement is the Edward Byrne 
Memorial Justice Assistance Grant (JAG) program. JAG, a formula 
grant program, supports a wide range of activities intended to 
improve the effectiveness and efficiency of the criminal 
justice system.
    Due to its importance in community crime prevention and 
reduction, we take great pains to see that funds are used 
appropriately and administered in the most transparent way 
possible.
    Our Bureau of Justice Assistance (BJA), the office 
responsible for managing the JAG program, takes a number of 
steps to ensure compliance with program stipulations and 
prevent misuse of funds, including the requirement of quarterly 
financial and activity reports and an annual desk review of 
each of its active grants. These measures allow us to maximize 
our oversight of JAG grants and minimize the potential for 
inappropriate use of Federal funds.
    As we provide critical funding to State and local law 
enforcement agencies, our research and development standards 
and testing programs managed by the National Institute of 
Justice enable us to deploy state-of-the-art equipment and 
technology to aid them in their work. Much of the equipment and 
technology used in public safety is adapted from the military. 
A notable example is the police body armor, which has saved the 
lives of more than 3,100 officers.
    Our partnership with the Department of Defense and the 
Department of Homeland Security has allowed us to collaborate 
on the research and development of these technologies and to 
help make them available to public safety agencies. We 
accomplish this by providing technical assistance to State and 
local agencies through the National Law Enforcement and 
Corrections Technology Center.
    I wish to also add that through the Police-Public Contact 
Survey, our Bureau of Justice Statistics collects data on 
citizen-law enforcement interactions such as driver stops and 
requests for assistance. We are actively working to improve our 
understanding of the nature of these interactions and to 
bolster our collections of data on the excessive use of force 
by law enforcement.
    Mr. Chairman, the Department of Justice and my office, the 
Office of Justice Programs, are committed to using our 
resources to help America's law enforcement agencies protect 
their communities while earning the trust and respect of the 
citizens they serve. We will continue to bring the latest 
knowledge and the best tools to this task. I want to thank you 
for the opportunity to speak with you today, and I look forward 
to working with this Committee to ensure that we are able to 
meet our collective goals of public safety and public trust.
    Thank you.
    Chairman Carper. Ms. Mason, thank you for that testimony, 
and again, to each of you, for what you have had to say.
    Dr. Coburn and I and the Members of this Committee spend a 
lot of time trying to figure out how do we make sure that the 
amount of resources that we are applying to a particular 
problem or challenge, particularly something that poses a risk 
to our Nation, to our homeland, how do we make sure that the 
resources that we apply are commensurate with the risk that 
exists. With that as a metric, with that as background, speak 
with us about each of these three programs. How well are we 
doing in terms of enabling law enforcement to have the 
resources, some of the resources that they need, to meet the 
level of risk that they face in their communities, public 
safety risks? Mr. Estevez, please.
    Mr. Estevez. From a taxpayer perspective, we have bought 
equipment that is no longer needed by the Department of Defense 
for a variety of reasons, and I will say, Senator McCaskill, it 
is not that some of it is not new, ``brand new'' is the term 
that I was shaking my head at. And there is a variety of 
reasons why stuff would become excess. But when it is no longer 
needed, we make it available across the Department of Defense 
first, and law enforcement by congressional authorization has 
dibs early in that process, before it goes out to State 
agencies. And not all of the equipment that is provided to law 
enforcement is available to everyone else.
    I think we are providing equipment that is useful to law 
enforcement, both from a disaster relief and from a public 
protection utilization, and it is not for the Department to 
really judge how law enforcement--that is not our expertise. We 
rely on the State Coordinators appointed by the Governor of 
each of those States who vet incoming requests from their local 
law enforcement agencies. We do due diligence about numbers, if 
it is an agency requests, 100 rifles and there are only 10 law 
enforcement officers, they do not get 100, they get 10. But we 
rely on the State Coordinator.
    So I think we are buying down risk out there for our law 
enforcement agencies and the protection of the public and 
providing public safety and also, of course, disaster relief.
    Chairman Carper. Excuse me. Mr. Kamoie, same question. How 
do we make sure that we are aligning risk with the resources 
that are being offered by these three agencies within the 
Federal Government?
    Mr. Kamoie. Thank you, Chairman Carper. I think it is 
appropriate to start the discussion with risk. As you know, the 
Homeland Security Grant Program, both the State program and the 
Urban Area Security Initiative, are risk-informed allocation 
decisions, meaning the Secretary of Homeland Security factors 
risk into the allocation of those funds, and the statute 
directs in the Urban Area Security Initiative program, for 
example, that he put the resources in the highest-risk urban 
areas in the United States. In this year, fiscal year 2014, the 
Secretary designated 39 high-risk urban areas to receive 
funding.
    The risk assessment is done in partnership with our 
colleagues at the Department's Intelligence and Analysis 
Division, working with the Department of Justice and the 
Federal Bureau of Investigation (FBI) and the intelligence 
community (IC). So we provide the Secretary with the best 
picture of risk we can. We recommend to him allocations based 
on those risk profiles. We communicate with the jurisdictions 
about their risk profiles, invite them to submit information to 
us that they believe we might not have or we might not have 
take into account. And then the Secretary makes those 
allocation decisions.
    As to how well we are doing, what I would point to is the 
requirement vis-a-vis law enforcement that 25 percent of the 
annual appropriations for the State and Urban Areas programs go 
to law enforcement. For the 5-year period of fiscal year 2008 
to fiscal year 2012, States----
    Chairman Carper. Go ahead and wrap it up, and I want to 
leave some time for Ms. Mason, please.
    Mr. Kamoie. Absolutely. States exceeded that 25-percent 
requirement by nearly $1 billion, and they spent 36 percent of 
the funding. So the funding is getting to the law enforcement 
as the statute intends.
    Chairman Carper. Good. Ms. Mason, same question. Risk, 
resources, how are they aligned?
    Ms. Mason. Thank you, Senator. The JAG Program is a formula 
program and money is allocated to State and local jurisdictions 
based on a formula, based on the violent crime rates and 
population data. And the Office of Justice Programs has very 
little discretion over the use of that money by State and local 
jurisdictions.
    But what we do is provide them with training about various 
criminal justice issues, and we are in the process of pulling 
together a toolkit that will enable law enforcement to know how 
to, for example, control crowds while also protecting civil 
liberties.
    So one of our primary responsibilities is to make sure that 
we equip local law enforcement with the training that they need 
and that they request in order to use our best practices to 
protect their communities.
    Chairman Carper. All right. Thank you.
    The second question deals with coordination or the appeared 
lack thereof. In some cases you are directed to coordinate. You 
are directed by law to be coordinating from agency to agency. 
Give us some examples of maybe where you are coordinating well 
and, frankly, some areas where you need to coordinate better, 
please. Really succinct and right to the point, please.
    Mr. Estevez. We need to do a better job in coordination. 
Let me start off there. There is probably a failure in 
coordination across the interagency regarding what we are 
providing. The Department is coordinating with the State 
Coordinators, coordinating with our colleagues, my fellow 
witnesses. We do, when, there is missing equipment, coordinate 
and let them know that kind of issue. But coordinating on what 
police forces could use, that could be better.
    Chairman Carper. Mr. Kamoie.
    Mr. Kamoie. Mr. Chairman, I think we are coordinating well 
in the risk assessment that I mentioned that informs the 
allocation of the programs. But I think through our discussion 
today and the White House review, I think we will have a lot of 
opportunity to improve how we coordinate on the downstream use 
of the equipment, perhaps discussion of training and what else 
we might do. So I think there is a lot of opportunity for 
improvement.
    Chairman Carper. Thank you. Ms. Mason.
    Ms. Mason. I concur with my colleagues, and we look forward 
to the results of the President's review and information about 
how we can better coordinate our resources together.
    Chairman Carper. Just give us, very briefly, some idea of 
how the review is going. Give us some idea of what the timeline 
is for completion of the review, when we will have an 
opportunity to hear about it.
    Mr. Estevez. It is in its preliminary stages, Senator. I am 
not sure what the outcome timeline is.
    Chairman Carper. Are we talking this quarter? This year?
    Mr. Estevez. I am going to defer to Brian, who is actually 
sitting on that.
    Mr. Kamoie. Sorry, Chairman. I do not know the timeline. 
What I can tell you is it is a comprehensive review that is 
looking at the very same kinds of data that you have requested, 
looking at how these programs operate and what the opportunity 
space might be for improvement.
    Chairman Carper. If you would just answer that question for 
the record, think about it a little further and answer that 
question.
    Chairman Carper. You do not have anything, Ms. Mason?
    Ms. Mason. No, I do not have any more information about the 
timeline, but I----
    Chairman Carper. We want a good, thoughtful, comprehensive 
review, but we want it sooner rather than later.
    The last thing I want to say before I turn the gavel over 
to Senator McCaskill and leave, my colleagues have heard me say 
more than a few times, one of the adages that my father often 
gave to my sister and me when we were kids growing up, we would 
do some bone-headed stunt, he was always saying, ``Just use 
some common sense.'' I would just hope, in addition to all the 
rules and regulations and oversight and laws we have in place 
dealing with these issues, I just hope we are using some common 
sense. I hope we are using it within certainly this Committee. 
I hope we are using it within the agencies that oversee these 
three programs. And I hope they are using it at the State and 
local level.
    I am going to run off to this meeting at the Capitol. If I 
can get back, I will. And if not, Senator McCaskill, you have 
it. Thank you all. Dr. Coburn.
    Senator Coburn. Thank you.
    Mr. Estevez, when was the last time that you can recall 
that the equipment from a 1033 transfer program was used in 
counterterrorism?
    Mr. Estevez. Senator, we do not have the capability of 
monitoring how the equipment that we have provided is----
    Senator Coburn. I understand that, but do you have any 
recollection--other than Boston and the Tsarnaev and he is in 
the boat and maybe some equipment was used there, when----
    Mr. Estevez. I do not, Senator.
    Senator Coburn. Does anybody know when the last time in 
terms of true counterterrorism that equipment was used?
    Mr. Estevez. I am sure we could pulse the system for 
anecdotes on that, but I really would have to do that, sir.
    Senator Coburn. All right. I am not going to go through the 
audit and the lack of response or timely response by your 
organization to the audit, but how do you all determine what 
Federal supply classes are available to be transferred?
    Mr. Estevez. That is done basically by our item managers 
who manage----
    Senator Coburn. I know, but tell me, how do they decide an 
MRAP is appropriate for a community of my hometown, 35,000 
people?
    Mr. Estevez. That is done by the State Coordinator.
    Senator Coburn. I understand that, but how did you ever 
decide that an MRAP is an appropriate vehicle for local police 
forces?
    Mr. Estevez. An MRAP is a truck, Senator, with----
    Senator Coburn. No, it is not a truck. It is a 48,000-pound 
offensive weapon.
    Mr. Estevez. It is not an offensive weapon, Senator. It----
    Senator Coburn. It can be used as an offensive weapon.
    Mr. Estevez. When we give an MRAP, it is stripped of all 
its electronic warfare capability. It does not have a .50-
caliber weapon on it. It is not an offensive weapon. It is a 
protective vehicle.
    Senator Coburn. OK. I will just make a point. You all give 
out .30-caliber weapons. It is on your list. A .30 caliber is a 
3-centimeter weapon. That is this big. That is the size of the 
shell. I just want to know how you come about to say that 
Muskogee, Oklahoma--and I know who makes the decision on 
whether equipment--but you make it available, and then a State 
through the Law Enforcement Support Office (LESO) and the State 
Coordinator determines that they get one of those. There are 
six of them in Oklahoma, all right? How did we ever get to the 
point where we think States need MRAPs? How did that process 
come about?
    Mr. Estevez. This is one of the areas that we are obviously 
going to look at, Senator, on how we decided what equipment is 
available. I mean, obviously we have made some big decisions. 
Fighter aircraft, tanks, Strykers, those types of things are 
not available. Sniper rifles, not available. Grenade launchers, 
not available.
    Senator Coburn. Drones are available.
    Mr. Estevez. No.
    Senator Coburn. Airplanes are available.
    Mr. Estevez. Airplanes are available.
    Senator Coburn. Helicopters are----
    Mr. Estevez. Cargo helicopters, helicopters, not Apaches.
    Senator Coburn. OK. But, you cannot tell us today how we 
make those decisions of what goes on the list and off the list.
    Mr. Estevez. It is basically a common-sense decision inside 
the Department, and then we do, as I keep saying, go back to 
the States.
    Senator Coburn. When something is removed from the list--
and I do not know if you have any recent experience with this--
are agencies required to return the restricted equipment?
    Mr. Estevez. That is why we retain title for what we call 
controlled equipment, so that we can pull that equipment.
    Senator Coburn. So is a .30-caliber gun----
    Mr. Estevez. A 7.62 weapon is available on the--7.62mm is 
available.
    Senator Coburn. I am talking 30--OK.
    Mr. Estevez. No crew-served weapons, nothing that requires 
a belt for feeding ammunition.
    Senator Coburn. All right. Are you aware of any that have 
been previously authorized that are now restricted?
    Mr. Estevez. The type of stuff that we have ended up 
further restricting, body armor. We used to provide body armor. 
We no longer do that. Part of that is for safety reasons. Once 
body armor becomes excess, we cannot guarantee its safety. 
Major equipment, I am not aware of any, Senator.
    Senator Coburn. OK. Thank you.
    Mr. Kamoie, according to FEMA's Authorized Equipment List, 
battle dress uniforms are an authorized purchase under 
preparedness grant programs, right?
    Mr. Kamoie. I believe that is correct, Senator.
    Senator Coburn. Why?
    Mr. Kamoie. The Authorized Equipment List is reviewed 
biannually, and we consult with State and local responders and 
stakeholders and the grantees who advise us on what it is they 
need to build the capabilities to support the national 
preparedness goals. Responders----
    Senator Coburn. Let us get right down to the point----
    Mr. Kamoie. So responders have told us that----
    Senator Coburn. So we need to have in the States, funded by 
the Federal Government, a militarized police force? I mean, 
that is a component of it.
    Mr. Kamoie. Well, I think a lot more----
    Senator Coburn. And that fits in with our goals?
    Mr. Kamoie. We certainly can review the types of uniforms 
that our responders are requesting, but they have advised us, 
in the building of capabilities to fight terrorism, that this 
type of dress would be useful.
    Senator Coburn. OK. Let me ask you the same question I 
asked Mr. Estevez. When was the last time that you are aware, 
in terms of the grant money that is being given out, either the 
UASI grants or the Homeland Security grants--and, by the way, 
the Homeland Security grants are not based on risk. The UASI 
grants are. The others are based on a mandate that came through 
this Committee that said X State will get X percent, rather 
than doing it on risk like we should have. When was the last 
time we have seen what you have given being used, other than 
the response to the Tsarnaev brothers, used against 
counterterrorism?
    Mr. Kamoie. That was the last time, the Tsarnaev----
    Senator Coburn. When was another time?
    Mr. Kamoie. I am quite sure that New York used its Domain 
Awareness System in the Times Square bombing attempt. That is a 
funded asset with these grant funds.
    Senator Coburn. OK.
    Mr. Kamoie. So within the last----
    Senator Coburn. With the Homeland Security grants, with the 
1033 program, with the Department of Justice grants, over the 
last 5 years, we have put out $41 billion worth of money, and 
we know of really two times.
    The point I am getting to is that we will never have enough 
money to be totally prepared for everything, and so the 
question is, it is common sense, much like the Chairman said, 
and judgement, and I see I am about to run out of time. We need 
a reassessment, both of the 1033 and both the grant programs at 
Homeland Security as well as the Byrne Justice program. I will 
submit the rest of my questions for the record.
    And, Ms. Mason, I just want to extend, if I may, just for a 
moment. I did a complete oversight of the grant programs 3\1/2\ 
years ago at the Justice Department, and what we saw was not 
pretty. And your testimony kind of inferred that you guys are 
really on top of all your grants right now. Would you kind of 
restate what you said in your opening testimony in terms of 
your grant management?
    Ms. Mason. Thank you for the question, Senator. What I 
would say is that we have done a very good job of implementing 
the things you suggested in your assessment of our grant 
programs, primarily through the creation of the Office of the 
Audit Assessment and Management, where we do a lot of internal 
self-assessment and looking at our programs. We have 
implemented risk assessment tools to determine which of our 
grants should get more in-depth monitoring. So we have also 
implemented that every single one of our grants gets a desk 
review every year. So we believe that we are doing a much 
better job in overseeing our grant programs.
    Senator Coburn. All right. Thank you very much. Thank you, 
Madam Chairman.
    Senator McCaskill. [Presiding.] I want to clear up and make 
sure that the record is clear. In response to a question from 
Congress to the Defense Logistics Agency, they responded that 
of the 1033 programs, 36 percent of the property issued is new 
and not used. In other words, almost 40 percent of what you are 
giving away has never been used by the military.
    Mr. Estevez. And I apologize for shaking my head when you 
said that earlier. What they said is that it is Condition Code 
A. Condition Code A is like new.
    Senator McCaskill. OK. Well, so we can argue about brand 
new, new, or like new. What in the world are we doing buying 
things that we are not using? And isn't that a fundamental 
problem that you need to get at? Before we even talk about 
whether all this stuff is being used appropriately or being 
used with training or being used in a way that makes common 
sense, how in the world are we buying that--and, by the way, we 
are going to--I guarantee you when I get this list--and I will, 
because this will not be the last hearing we have on this. I 
guarantee you the stuff you are giving away, you are continuing 
to buy. I guarantee it. So tell me how that happens.
    Mr. Estevez. Well, first of all, we will have to look at 
the type of stuff that is provided in new condition.
    Senator McCaskill. Well, give me an example of something 
that is provided in new condition.
    Mr. Estevez. Senator, I will have to go through----
    Senator McCaskill. But 36 percent of what you are giving 
away, you have no idea what it is you are giving away that is 
new?
    Mr. Estevez. I will have to go through the list, Senator, 
and I will be happy to take your question for the record on 
that. So as force structure changes, as our budget changes, 
things that we thought we would need were no longer needed, or 
things that we bought for the war--and I am not talking about 
tactical rifles and the like. I am talking about basic medical 
kits, that type of stuff--may no longer be needed as we draw 
down force structure based on changing environment on the 
ground.
    The Budget Control Act (BCA) changes our force structure. 
Things that we required will no longer be needed as that force 
structure changes. That is the basic reason.
    Senator McCaskill. Well, this is actually totally in your 
wheelhouse because you have acquisitions. So if we are buying 
so much stuff--and what is going to drive me crazy is when I 
figure out that what you gave away last year, you bought this 
year. That is going to drive me crazy. So just be ready. It is 
going to drive me crazy.
    Let me look at how much you are giving away. I know that 
this is the State Coordinator, but I want to make sure that we 
are clear about how out of control some of this is.
    In Dr. Coburn's State, the Payne City sheriff's office has 
one full-time sworn officer. One. They have gotten two MRAPs 
since 2011. Now, you gave the impression in your testimony that 
you all are at least doing the minimum about making sure what 
you give is somehow proportional to the size of a force.
    Before you answer that, let me give you this fact. In the 
Lake Angelus Police Department, in Michigan, you gave them 13 
military assault weapons since 2011. They have one full-time 
sworn officer. So, one officer now has 13 military-grade 
assault weapons in their police department.
    How in the world can anyone say that this program has one 
lick of oversight if those two things are in existence?
    Mr. Estevez. I will have to look into the details on each 
of those. The rule of thumb is one MRAP validated by the State 
Coordinator for a police department that requests an MRAP, no 
more than one. So I would have to look at the incident in 
Senator Coburn's State. And the same thing with rifles, 
weapons.
    Senator McCaskill. I will make part of the record the 
list.\1\ We have a long list of law enforcement agencies that 
received 3 times as many 5.56 and 7.62 military-grade weapons 
per full-time officer, and this is a long list. This is not a 
short list. So, I think we need to get to the bottom of that.
---------------------------------------------------------------------------
    \1\ The information provided by Senator McCaskill appears in the 
Appendix on page 224.
---------------------------------------------------------------------------
    The risk allocation you talked about, Mr. Kamoie, there is 
a formula that every State gets money, regardless of risk, 
right? It does not matter if you have zero risk in your State. 
Everyone gets money.
    Mr. Kamoie. There are State minimums prescribed by the 
Homeland Security----
    Senator McCaskill. Which has nothing to do with risk.
    Mr. Kamoie. Correct.
    Senator McCaskill. OK. I want to make sure we are clear on 
that. And isn't it true now that rather than these communities 
coming and saying, ``This is what we have figured out we 
need,'' now you tell them how much money they get, and they 
give you a list of what they want to buy with it?
    Mr. Kamoie. Well, we have actually moved more toward 
project-based applications where we are asking grantees up 
front to identify the types of projects and the investment, 
really with an eye toward tighter fiscal management and 
oversight of the programs. We want to know more of this. I 
think the evolution of the program has gone from, at a time 
when they were pretty generic homeland security strategies at 
the State level, where we are trying to tighten the investment 
justifications and then telling us in advance.
    Senator McCaskill. MRAPs can be very dangerous, correct, 
Mr. Estevez? They flip?
    Mr. Estevez. They are very heavy vehicles.
    Senator McCaskill. And yet there is no requirement for 
training for any of these departments that are getting these 
vehicles.
    Mr. Estevez. We cannot provide training to police 
departments, Senator.
    Senator McCaskill. So, are you comfortable with the fact 
that Texas has received 73 MRAPs in 3 years while the entire 
National Guard of Texas only has six? How can you explain that?
    Mr. Estevez. Again, for excess material--and an MRAP was 
put on the list of available--we provided--and the States and 
State Coordinators are responsible for ensuring training. The 
military force is retaining about 12,000 MRAPs across the Army 
and the Marine Corps, a smattering in the Air Force and the 
Navy, and they are going to allocate those across the entire 
force structure. So I am not sure how they will be allocated 
across the Guard.
    Senator McCaskill. Could it be that the Guard does not want 
them because they know that they tear up the roads and they 
flip easily and have limited applicability?
    Mr. Estevez. The Guard will--if the Guard requires an MRAP 
for deployment, they will be issued an MRAP.
    Senator McCaskill. Does it make you uncomfortable that 
there are States where the National Guard has no MRAPs, but 
police departments have them everywhere? Does that fact make 
you uncomfortable in any way?
    Mr. Estevez. I believe the Guard will be allocated the 
force structure that they are needed for their Federal role. So 
as I said, there are 12,000 MRAPs that will be allocated across 
the force structure as they come back from----
    Senator McCaskill. Why are we giving them away to police 
departments before we give them to the Guard?
    Mr. Estevez. Because we bought 24,000 MRAPs, so we have 
more MRAPs than we will need. And we bought----
    Senator McCaskill. I understand. But why would the police 
departments be in line to get these before the National Guard?
    Mr. Estevez. The ones that we are excessing are the older, 
they are not the best MRAPs. We have retained the best MRAPs in 
the force structure.
    Senator McCaskill. Is there any reason that any of the 
three of you can give me why we would not, if we are going to 
continue funding State and local--and, by the way, I have seen 
a lot of good during my career from Federal funding to State 
and local law enforcement. And, by the way, I want to be clear. 
I saw a vehicle extricate some police officers in a pretty 
dangerous situation in Ferguson once some of the outsiders 
started coming in from other States that wanted a confrontation 
with the police.
    Having said all that, has there been a discussion about 
perhaps saying the first thing that we would fund before we 
begin to fund anything else, not a Federal mandate but, rather, 
the first on your list must be body cams? Has that been 
discussed either at DOJ or at Homeland Security? That these 
officers that are going to be using some of this equipment, 
that the best way to check whether or not it is being used 
appropriately is for every officer to wear a camera?
    Ms. Mason. Senator, the Office of Justice Programs, our JAG 
funds are available for law enforcement agencies to use to 
purchase body cameras, and we do see value in body cameras. But 
as you know, our National Institute of Justice is studying the 
effectiveness of body cameras and the appropriate use of body 
cameras.
    Senator McCaskill. But they can buy them now?
    Ms. Mason. Yes, ma'am.
    Senator McCaskill. So it would not be hard if we decided, 
before you get anything else, we are going to insist you use 
our money for body cams before you buy other things, like full-
blown battle gear or camouflage uniforms or grenade launchers 
that attach to rifles?
    Ms. Mason. The JAG money is formula money, and we do not 
control how State and local jurisdictions use that money. But 
it is a permissible use to buy body cameras.
    Mr. Kamoie. Chairman McCaskill, video cameras are on the 
Authorized Equipment List, and if a grantee came forward and 
said to us that they believe that body cameras for law 
enforcement would serve purposes for which the program is 
authorized in terms of preparing capabilities for terrorism, 
operational coordination, situational awareness, we would 
consider that an allowable expense.
    Senator McCaskill. OK. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Madam Chairman.
    Secretary Estevez, are you aware of any local police 
department that has purchased an MRAP with their own funds?
    Mr. Estevez. I am not, and I do not know how they would.
    Senator Johnson. Or a .30-caliber weapon?
    Mr. Estevez. I could not answer that question on what a 
local police department buys with their own funds, but MRAPs 
are not available, so that is why I know that.
    Senator Johnson. Again, I was not around here, but 
according to my briefing here, the first program was authorized 
in a defense authorization bill primarily about the drug wars. 
Is that correct?
    Mr. Estevez. That is correct.
    Senator Johnson. So what were local police departments 
missing that they needed to be funded or given from the Defense 
Department to combat the War on Drugs?
    Mr. Estevez. First, let me be clear. We, the Department, we 
do this because we are asked to do this.
    Senator Johnson. I understand. Again, I am just asking for 
the history. What equipment were local----
    Mr. Estevez. The police departments were outgunned by drug 
gangs, so they were looking for protection, and they were 
looking for fire power.
    Senator Johnson. OK. Then apparently this was expanded in 
1997, my note says, ``based on lobbying from police 
organizations.''
    Mr. Estevez. Again, I cannot answer why the authorization 
was expanded. At the time it was for counterterrorism, but if 
it was lobbying from police organizations, OK.
    Senator Johnson. Of course, there is always a great desire 
to get free things from the Federal Government, correct?
    Mr. Estevez. Of course.
    Senator Johnson. This program, which has apparently 
provided about $5.1 billion of free equipment since 1997--it 
has all been free, correct?
    Mr. Estevez. Yes. It is not free to the taxpayer. We bought 
it, used it, and----
    Senator Johnson. I understand, but free to the local 
governments, correct?
    Mr. Estevez. That is correct.
    Senator Johnson. Free to local police departments.
    Mr. Estevez. Yes, sir.
    Senator Johnson. Do you know of too many police departments 
that turn free things down?
    Mr. Estevez. Again, I am not in the position of a local 
police department, but if something was available and they 
thought they needed it--because they have to sustain this 
equipment. If they thought they needed it and it was useful to 
them, why not?
    Senator Johnson. Mr. Kamoie, the $41 billion that DHS has 
granted under your program since 2002, has there been any--that 
is grant money, correct?
    Mr. Kamoie. Yes, Senator.
    Senator Johnson. Is there any cost sharing associated with 
that?
    Mr. Kamoie. In several of our programs, the Port Security 
Grant Program, for example, in some years there is a cost-
sharing requirement in the----
    Senator Johnson. How much? Of the $41 billion, how much is 
that multiplied by local budgets?
    Mr. Kamoie. Given that the cost share requirement was 
imposed in some years and not, we will have to followup with 
you on that, but I can tell you the Emergency Management 
Performance Grant Program, about $350 million a year, is a 50-
percent cost share in that every year.
    Senator Johnson. Do you think if we multiply that by 
another $40 billion, has there been a 50-percent cost share, we 
have basically granted $41 billion worth of funds for the 
purchase of this type of equipment, and local governments have 
maybe contributed $1 billion?
    Mr. Kamoie. Well, we will have to followup with you on 
numbers.
    Senator Johnson. OK.
    Mr. Kamoie. But just to be clear, Senator, the over $40 
billion is not just for law enforcement. I mean, there are a 
lot of other purposes for these programs: port security, 
transit security. That number includes our firefighter 
programs, staffing for emergency managers and firefighters.
    Senator Johnson. When people get things for free, when you 
get a lot of money, one of the first things my wife as an IRS 
agent learned, the first government phrase was, ``Use it or 
lose it.'' And that is just a concern in terms of how you put 
money to work.
    Ms. Mason, the $4.4 billion granted by the Department of 
Justice since 2005, has that had any kind of cost-sharing 
requirement associate with it?
    Ms. Mason. The JAG money is formula money that does not 
require cost sharing from local governments. But, for example, 
this year we awarded $280 million in grants. Those are spread 
between the 56 U.S. States and territories as well as local 
governments. So for 80 percent of our grants, JAG grants, the 
average award size is only $30,000.
    Senator Johnson. So, all three of the witnesses, are you 
aware of any piece of equipment that is either given away or 
allowed to be purchased--I am really talking about the Defense 
Department. Are any of those pieces of equipment that have been 
given away that would not be available for purchase by a local 
police department? Or are they all available on the open 
market?
    Mr. Estevez. An MRAP is not available on the open market 
because it is out of production. It was only made for the 
Department.
    Senator Johnson. But when it was in production, were there 
any restrictions in terms of people being able to buy that?
    Mr. Estevez. I would have to go back and look at that. It 
was probably the restriction it was unavailable.
    Senator Johnson. OK. I think my point being is if--we are 
making the decision at the wrong level here. If local police 
departments actually needed this equipment, if they felt it was 
necessary, isn't the proper way of doing this to have them go 
through their city councils, go through their States, make the 
political case for armoring up to protect themselves, whether 
it is against drug lords or whether it is against 
counterterrorism? I can understand the Federal role in terms of 
information sharing and potentially communication devices so we 
can provide that information. But, I mean, hasn't this gone out 
of control simply because the Federal Government is there, we 
are just granting money, and people are going to use it?
    Mr. Estevez. I guess from my perspective, Senator, we have 
bought this stuff for the Department of Defense. It is no 
longer needed. The States need to make that decision on whether 
they need this type of equipment. And, in fact, they do, and 
that is the funnel. So the State Coordinator, appointed by a 
Governor, makes the decision on whether a local police force, 
after a request by a local police force, needs it or not, not 
the Department of Defense.
    Senator Johnson. So, again, prior to these programs in 
place, did any police department have any type of this 
equipment? Did they ever use their own funds and purchase this 
type of equipment? Or is it only because it is available, it is 
given to them for free--``Yes, I will take some of that,'' 
``That would be kind of a neat thing to have parked in our 
garage.''
    Mr. Estevez. I am not an expert in local policing, but 
police forces certainly had armored vehicles, police forces 
certainly had weapons.
    Mr. Kamoie. Senator, in our Port Security Grant Program, we 
do fund a lot of police boats that patrol the waterways of our 
Nation's over 100 ports. The cost-share requirement for that 
has varied over year by year, but in many years it has been 25 
percent. And so, yes, a local jurisdiction has to make a 
decision about those investments, and I do not have the entire 
history, but I would imagine that in our port cities, before 
the Port Security Grant Program was created, that many of them 
likely did acquire police vessels to secure the port.
    Senator Johnson. OK. So, again, I really would like that 
information in terms of how much cost sharing, and if we are 
looking for a solution, I think that would be it right there. I 
think people need to have skin in the game. These decisions in 
terms of what type of equipment is going to be purchased need 
to be made at the local level. They have to show their citizens 
that we really do need that type of protection.
    And, by the way, I am all for protection of the police 
department. Senator Baldwin and I and her representative 
attended a congressional Badge of Courage ceremony, Badge of 
Bravery for Lieutenant Brian Murphy and Officer Sam Lenda in 
the Oak Creek Sikh massacre, and we saw a video of these brave, 
courageous public servants, public safety individuals, just 
walking straight into danger. So we are all about making sure 
that these officials are protected. But the decision needs to 
be made at the local level, not here in the Federal Government. 
Otherwise, this is exactly the problem we have when we make the 
decision at the wrong level of government.
    Mr. Kamoie. Senator, we will provide you that information.
    Senator Johnson. OK. Thank you, Madam Chairman.
    Senator McCaskill. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you.
    I was pleased and somewhat relieved to see Attorney General 
Holder and the Justice Department announce that they will 
independently investigate not only the shooting of Michael 
Brown but also the policing practices of the Ferguson and St. 
Louis County police forces. I think that Department of Justice 
investigations like these serve a critical role in maintaining 
and in some cases rebuilding public confidence in law 
enforcement.
    I would like to know from our panelists then if the grant 
programs administered by each agency look at whether a State or 
local law enforcement agency is under active investigation for 
civil rights or civil liberties violations or has a history of 
those violations.
    Mr. Estevez, the statute that authorizes the 1033 program 
requires the Secretary of Defense to carry out the program in 
consultation with the Attorney General. So I wonder: What is 
the nature of the consultation between the Department of 
Defense and the Department of Justice on this program? And is 
there a discussion of whether a law enforcement agency is under 
investigation for the possible deprivation of constitutional 
rights?
    Mr. Estevez. Senator Baldwin, the consultation with the 
Department of Justice is one of the areas that we are frankly 
lacking, that we need to do a better job of, that we will look 
at under the administration's review and we will discuss with 
this Committee. So we need to do a better job there.
    I will say that----
    Senator Baldwin. Well, I accept your statement at face 
value that you can do better. But currently in that 
consultation is the matter of an open or closed investigation 
into civil rights or civil liberties deprivation a part of your 
discussion or consultation?
    Mr. Estevez. No.
    Senator Baldwin. And is there any reason why it could not 
be in the future?
    Mr. Estevez. Of course it could be.
    Senator Baldwin. OK. Mr. Kamoie, is there coordination 
between the Department of Homeland Security and the Department 
of Justice in the programs that you administer on these same 
questions?
    Mr. Kamoie. Thank you, Senator Baldwin. We certainly 
coordinate on the risk elements of the allocation decisions and 
recommendations for the Secretary. The risk formula is 
prescribed by statute. It is a combination of threat, 
vulnerability, and consequence, and the elements of each of 
those are laid out in statute. But to answer your specific 
question, no, we do not take into account whether a law 
enforcement organization is under investigation for potential 
deprivation of civil rights and civil liberties.
    Senator Baldwin. Ms. Mason, in administering the Byrne JAG 
program--it is obviously a within-Department consultation 
discussion--do those issues get discussed?
    Ms. Mason. Thank you for the question, Senator. The Byrne 
JAG grants are formula money, and we have very little 
discretion over how that money is used. But the Civil Rights 
Division does coordinate with our office when they are doing 
investigations and as they develop their consent decrees, and 
we work closely with them in designing the content of the 
consent decrees.
    Senator Baldwin. I understand what you said about the 
formula and the lack of discretion, but tell me a little bit 
more about the nature of that consultation and how that can 
come into play in decisions that you are entertaining.
    Ms. Mason. Well, there are two factors in that. The Office 
of Justice Programs has its own Office of Civil Rights that 
makes sure that all of the grant programs for the Department 
comply with civil rights laws. If the Civil Rights Division is 
investigating one of our grantees, they typically will 
coordinate with our Office of Civil Rights. We will monitor 
things and, as the process proceeds, have input into whatever 
agreement is reached between the Department with that agency.
    Senator Baldwin. Thank you. I want to move to the issue of 
training, especially in the 1033 program. We have heard in 
testimony that billions of dollars' worth of surplus military 
equipment has been transferred to State and local law 
enforcement agencies, including some significantly 
sophisticated materials previously operated by trained military 
personnel, primarily in combat situations for some of that 
equipment. This includes, as we have talked about, MRAPs, 
armored vehicles, grenade launchers, assault rifles.
    We certainly have great confidence in the skills of our 
first responders, but these pieces of equipment are not 
traditional police equipment and may be very unfamiliar to many 
police officers and sheriff's deputies in communities across 
this country.
    So I understand that the Defense Logistics Agency conducts 
a biennial inventory review of the States that participate in 
the 1033 program. But this effort appears to be focused simply 
on corroborating that the transferred equipment is accounted 
for.
    Can you tell me if the DLA review, Mr. Estevez, or even the 
original application process makes any inquiry at all as to 
whether the agency has the appropriate training or access to 
the appropriate training to use and maintain this equipment or 
if after the fact the equipment is being properly used?
    Mr. Estevez. Defense Logistics Agency, which facilitates 
this program, does not have that capability, and neither does 
the Department of Defense as a whole. We cannot manage local 
police forces. Even equipment that we are trained to use is 
trained to use for combat operations, not for local policing 
operations. And let me also say we do not provide grenade 
launchers, to be clear.
    So the training, the State Coordinator certifies that a 
local police force that is going to receive an item has the 
ability to train themselves to use it, so if they are going to 
get a helicopter, they have a pilot. And the State Coordinator 
certifies that the local police force has the ability to 
sustain the equipment that they are going to be provided.
    Senator Baldwin. And what confidence do you have that that 
level of inquiry is happening at the State Coordinator level if 
it is not happening under your supervision?
    Mr. Estevez. I think that, frankly, varies by State 
Coordinator, but I think State Coordinators in the last number 
of years have actually put more attention and due diligence on 
that process. And we found that as we did a full-out review of 
the whole program with the State Coordinators, suspended all 
the States because of accountability issues, and during that 
process we found that State Coordinators are focusing their 
attention on those issues, Senator.
    Senator Baldwin. Mr. Kamoie, are there similar requirements 
in either the application process or the audit process for 
training, for proper maintenance of equipment? What 
accountability can you share with this Committee in the 
Department of Homeland Security?
    Mr. Kamoie. We encourage training for grantees. It is an 
allowable expense under our programs. We do not require 
training, but we do offer training through the Department's 
Center for Domestic Preparedness for responders and the 
Department's Federal Law Enforcement Training Center. So we do 
offer it, we encourage it, but we do not require training.
    Senator Baldwin. And, Ms. Mason, I believe you already 
testified that training is one of the things that can be funded 
through grants. But can you talk about the training 
opportunities available in Byrne JAG?
    Ms. Mason. Yes. The training opportunities, Byrne JAG funds 
may be used for training, but separate and apart from our JAG 
funding, the Office of Justice Programs provides a full range 
of training opportunities for law enforcement. Over the last 3 
years, we have put together approximately 100 online training 
courses. We also have many webinars on various issues. We 
survey the law enforcement to find out what training classes 
and things they would need. But it is part of our mission to 
make sure that we provide a range of training opportunities for 
State and local governments.
    Senator Baldwin. Thank you.
    Senator McCaskill. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. I think many of us were horrified by some of 
the images that came out of Ferguson. We were horrified by 
seeing an unarmed man with his hands over his head being 
confronted by an armored personnel carrier. We were horrified 
by seeing an unarmed man with his hands over his head being 
confronted by a man with a draw on an assault weapon. We were 
horrified by images of tear gas being shot into the yards of 
people's personal homes who were protesting.
    One of the fundamental things about America is dissent and 
the ability to have dissent, and it needs to be peaceful. There 
needs to be repercussions for people who do not act in a 
peaceful way. But confronting protesters with armored personnel 
carriers is thoroughly un-American, and for 150 years, we have 
had rules separating the military, keeping the military out of 
policing affairs. But you obscure that separation if you allow 
the police to become the military.
    In FEMA's Authorized Equipment List, there is actually 
written descriptions for how the equipment should be used, and 
it says it is specifically not supposed to be used for riot 
suppression. Mr. Kamoie, is that true, that it is not supposed 
to be used for riot suppression? And how do you plan on 
policing that since the images show us clearly large pieces of 
equipment that were bought with your grants being used in that 
riot suppression?
    Mr. Kamoie. Senator Paul, that is----
    Senator Paul. Or protest suppression, rather?
    Mr. Kamoie. That is accurate. The categories of personal 
protective equipment that include helmets, ear and eye 
protection, ballistics, personal protective equipment, there is 
a prohibition in the Authorized Equipment List that it is not 
to be used for riot suppression.
    Senator Paul. And what will you do about it?
    Mr. Kamoie. We are going to follow the lead of the 
Department of Justice's investigation about the facts. We are 
going to work with the State of Missouri to determine what 
pieces of equipment were grant funded. And then we have a range 
of remedies available to us should there be any finding of 
noncompliance with those requirements. Those include everything 
from corrective action plans to ensure it does not happen 
again, recoupment of funds. So we will look very closely at the 
facts, but we are going to allow the investigation to run its 
course and determine what the appropriate remedy is.
    Senator Paul. But it gets back to that whole question. If 
you are a police force anywhere in the country, from Dundee, 
Michigan, of 3,900, which has an MRAP, to 25 other cities under 
25,000 have MRAPs, they think these are for riot suppression--
well, I do not know what they think they are for in a city of 
3,900 people. But many of the police forces actually think that 
this is what the equipment would be good from, is riot 
suppression in a big city, in an urban area. And you are 
specifically instructed that it is not for that. And we have 
talked about and we have had maybe two instances of terrorism. 
There has been billions and billions of dollars and maybe two 
instances of terrorism. So I think really by supplying all of 
this free equipment, much of which is just, frankly, 
inappropriate and really should not be on anybody's list of 
authorized equipment.
    Mr. Estevez, in the NPR investigation of the 1033 program, 
they list that 12,000 bayonets have been given out. What 
purpose are bayonets being given out for?
    Mr. Estevez. Senator, bayonets are available under the 
program. I cannot answer what a local police force would need a 
bayonet----
    Senator Paul. I can give you an answer: None.
    Mr. Estevez. OK.
    Senator Paul. So what is President Obama's Administration's 
position on handing out bayonets to the police force? It is on 
your list. You guys create the list. Are you going to take it 
off the list or are we going to keep doing it?
    Mr. Estevez. We are going to look at what we are providing 
under the Administration's review of all these programs.
    Senator Paul. So it is unclear at this point whether 
President Obama approves of 12,000 bayonets being given out? I 
would think you could make that decision last week.
    Mr. Estevez. I think we need to review all the equipment 
that we are providing, Senator, and as I said, we, the 
Department of Defense, do not push any of this equipment on any 
police force. The States decide what they need.
    Senator Paul. My understanding is that you have the ability 
to decide what equipment is given out and what equipment is not 
given out. If you decided tomorrow, if President Obama decided 
tomorrow that mine-resistant ambush protection 20-ton vehicles 
are not appropriate for cities in the United States, he could 
decide tomorrow to take it off a list; you could decide this 
tomorrow. My question is: What is the Administration's opinion 
on giving out mine-resistant ambush protection 20-ton vehicles 
to towns across America? Are you for it or against it?
    Mr. Estevez. Obviously, we do it, Senator. We are going to 
look at that. I will also say that--I can give you anecdotes 
where mine-resistant ambush protection vehicles have protected 
police forces in shootouts.
    Senator Paul. But we have already been told they are only 
supposed to be used for terrorism, right? Isn't that what the 
rule is?
    Mr. Estevez. Our rule is for counter-drug, which could have 
been the shootout--I would have to look at the incident--
counter-narcotics, counterterrorism.
    Senator Paul. I guess the point I wish to make is that 
these are fairly simple problems, and common sense applied 
years ago, we could have fixed these. We are going to maybe fix 
them, although I have my doubts, because I have seen rarely 
anything ever fixed in government. But I would say that we are 
now responding to a tragic circumstance in Ferguson to do this. 
But I find these decisions to be very easy to make. You just 
should not be giving out mine-resistant vehicles. Bayonets--
there is no excuse. I do not understand why we have to get 
together and have a study for months to decide bayonets are 
inappropriate to be giving out. I cannot imagine any use for a 
bayonet in an urban setting.
    So, really, this has gotten out of control, and this has 
largely been something that--the militarization of police is 
something that has gotten so far out of control, and we have 
allowed it to descend, along with not a great protection of our 
civil liberties as well. So, we say we are going to do this. It 
is OK if it is for drugs. Well, look at the instances of what 
has happened in recent times, the instance in Georgia just a 
couple of months ago of an infant in a crib getting a 
percussion grenade thrown in through a window in a no-knock 
raid. It turns out the infant obviously was not involved in the 
drug trade, but neither was even the infant's family. Happened 
to be in the wrong place at the wrong time. No one has even 
been indicted on this.
    So, really, this is crazy out of control, and giving 
military equipment, and with the breakdown of the whole idea of 
due process, of no-knock raids and not having judges issue 
warrants anymore, you can see how this gets out of control, and 
people are very concerned with what is going on here. And I see 
the response so far to be lackluster, and I hope you will do a 
more complete job in trying to fix this.
    Thank you.
    Senator McCaskill. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Hi. I want to thank all the witnesses for 
being here, and certainly thank Senator McCaskill, the 
Chairman, and the Ranking Member for having this hearing.
    What I wanted to understand in particular, Mr. Estevez, I 
think as you have described the 1033 program, it is--you have a 
State Coordinator, and then DOD does not decide what equipment 
is needed. You are just relying on that State Coordinator for 
those decisions.
    Mr. Estevez. That is correct, and I should point out that 
the Governor of the State has the State Coordinator, not us, 
and we rely on the State to filter those decisions.
    Senator Ayotte. So is there any followup in terms of what 
the equipment is being used for and what type of training the 
police departments that are receiving it have obtained when the 
equipment is transferred?
    Mr. Estevez. State Coordinators, in certifying that the 
local agency needs that, certify that they are going to have 
the available training and train themselves on that equipment.
    Senator Ayotte. Do you do any types of followup other than 
receiving the certification? Is there any kind of audit of what 
is happening and how the equipment is being used?
    Mr. Estevez. There is no followup on how the equipment is 
being used. Our audits--for the controlled equipment, because 
we provide--96 percent of what we provide is non-controlled 
benign equipment. We followup on----
    Senator Ayotte. Yes, when I am referring to this, I should 
have been specific on the controlled equipment. Obviously, 
office furniture you would not generally have a followup on.
    Mr. Estevez. We followup on accountability of the 
equipment. We retain title to that equipment, but we do not 
followup on its use, Senator.
    Senator Ayotte. OK. So do you think, with this process that 
is being reviewed right now, not only the President but the 
congressional oversight that will be had here, that the way the 
system is working right now, DOD has some responsibility to not 
just to have a follow-up in terms of what is being done with 
this equipment?
    Mr. Estevez. I think that that has to be part of the look 
at what we are doing, the review. I think, speaking from the 
Department of Defense's standpoint, it is very hard for us 
because we do not have expertise in police forcing--it is not 
what we do--on whether it is an appropriate use or not 
appropriate use. Now, I can look at the pictures of Ferguson 
and wince like everybody else in this room, but I think that 
has to be part of the dialogue and discussion of what we are 
going to do and how we are going to assess the use of 
equipment.
    Senator Ayotte. Mr. Kamoie, I wanted to ask the Homeland 
Security role. I do not know if you are the appropriate person 
to ask this question, but on the Homeland Security front, what 
type of oversight is there in terms of the 1033 equipment? Does 
Homeland have any oversight over the receipt of that?
    Mr. Kamoie. We do not, Senator.
    Senator Ayotte. Is there any coordination between the 
grants that Homeland is giving in light of what the departments 
are receiving on the 1033 front?
    Mr. Kamoie. We do not coordinate in the decisionmaking 
about local law enforcement requests. The process that Mr. 
Estevez has laid out, we do not coordinate that at all.
    Senator Ayotte. So you would not necessarily even know on 
issuing a homeland grant what the DOD has done in terms of 
issuance of equipment to local agencies?
    Mr. Kamoie. Correct.
    Senator Ayotte. OK. So how do you then know, in terms of 
the use of the homeland grants for this, that there should not 
be some followup?
    Mr. Kamoie. So that is an entirely different story. I will 
say I know the Defense Department's equipment under the 1033 
program is free. Grantees have paid for, I believe, 
transportation costs using grant funding. But it is a very 
small percentage of use of grant funds.
    So in terms of how grantees use equipment that has been 
acquired with our programs, for the State program, even the 
Urban Area program, the grants pass through the State; 80 
percent of the State program funding has to go to local 
jurisdictions within that State. So we work with the State in 
oversight. In their applications they tell us more and more 
detail now about the projects they intend, and certainly we 
have the ability to drill down in, as we are doing with the 
State of Missouri and follow up on use of the equipment to 
ensure that it meets program requirements. So we have 
visibility.
    We do not have real-time visibility on all acquisitions 
made at the local level, but working with our State partners, 
we can get pretty good visibility.
    Senator Ayotte. I would like an opinion from all of you, if 
you are able to answer. We have focused a lot, understandably 
so, on these programs and the military-style equipment to 
agencies in a Ferguson-type situation. What I would like to 
know is the use of the equipment, whether it is from Homeland 
Security, how have we evaluated the needs in a Boston Marathon 
bombing situation or a situation like that, which seems to me 
quite different than obviously a Ferguson situation?
    Mr. Kamoie. Thanks for the question, Senator. So we work 
with grantees and provide them tools to assess the risks that 
they face and the hazards in their community. We try and 
provide them guidance on how to estimate their capabilities for 
addressing the threats that they have identified. They 
certainly have discretion in terms of the kinds of equipment 
that they think would best meet those needs. But as we did see 
in Boston, the equipment that was purchased, including the law 
enforcement equipment, certainly facilitated the response, 
certainly facilitated the pursuit and apprehension of Tsarnaev. 
And so we do work with communities in terms of their 
assessments of their risk, and they are building to 
capabilities to address them.
    Senator Ayotte. Ms. Mason, I wanted to ask you about on the 
Justice end with regard to the Byrne JAG grants. Do we know how 
much of those grants are used for this type of equipment? 
Because having been Attorney General of my State, a fair amount 
of those grants have gone to other things, I know, as well, for 
example, whether it is protecting children from online 
predators or whether it is providing assistance to victims of 
crime, even though there is obviously Victims of Crime Act 
(VOCA) and Violence Against Women Act (VAWA) funds. But there 
is all kinds of variety in terms of how those funds would be 
used. Do you have a sense of how much is used for this in terms 
of the equipment purchasing?
    Ms. Mason. Yes, thank you for the question. As you 
mentioned, the JAG money is available to address the full range 
of criminal justice issues in a State, and what we have seen is 
that of the money that is allocated for the law enforcement 
category--because there are courts categories, victim 
categories. But of the law enforcement category, about 40 
percent of the money allocated in that category goes to 
equipment, but most of the equipment that we are seeing people 
buy are computers, technology, and things like that. And for 
vehicles, the JAG money can only be used for cars, boats, 
helicopters, without coming back to the Director for specific 
approval, and we have only since 2005, we went back and did an 
investigation. We have approved only seven armored vehicles 
since 2005.
    Senator Ayotte. Thank you. My time is up.
    Senator McCaskill. I think Senator Coburn has a few more 
questions, and then we will get to the second panel.
    Senator Coburn. I just want to introduce to the record an 
article from October 16, 2013, the Boston Globe,\1\ which sets 
the record straight. Tsarnaev was found because a guy went out 
to check his boat because he saw the end of it up. It did not 
have anything to do with money that we spent. It did not have 
anything to do with anything other than he noticed it and he 
was surprised by the fact that he found this guy in the fetal 
position in his boat and called 911. So this needs to be in the 
record to set the record straight about what that is.
---------------------------------------------------------------------------
    \1\ The Boston Globe article appears in the Appendix on page 218.
---------------------------------------------------------------------------
    Senator McCaskill. Without objection.
    Senator Coburn. I have one question for the three of you, 
and then we will go to the next panel. What have you heard 
directly from the Administration in terms of review at your 
level about the review that the Administration announced based 
on what happened in Ferguson? What information have you 
received at the Justice Department, at Homeland Security and 
FEMA, and at the Department of Defense? What have you heard 
directly from the White House?
    Ms. Mason. We have already had meetings about the review, 
and we have already been supplying information. So the review 
is an active process at this time.
    Senator Coburn. As far as the Justice Department is 
concerned.
    Ms. Mason. All of us are involved.
    Senator Coburn. Well, let me get them to answer 
specifically. What have you heard, Brian?
    Mr. Kamoie. Senator Coburn, I have participated in the 
first meeting of the review panel. It is a comprehensive review 
of the programs, their operation, the very same kinds of 
questions we have talked about here, training, our oversight, 
auditing, compliance. Senator, I look forward to reading that 
article. Information that was provided to me by the 
Massachusetts Homeland Security Agency and the State Police 
indicate that----
    Senator Coburn. Infrared camera.
    Mr. Kamoie. The infrared camera was instrumental in 
locating him. So I look forward to reading that article.
    Senator Coburn. Here is the direct quote from the guy that 
called 911 to tell them, ``There is somebody in my boat, and he 
has been injured. I think he is Tsarnaev.''
    Mr. Kamoie. I understand, Senator. I look forward to 
reading it.
    Mr. Estevez. My direct staff at the Assistant Secretary 
level is participating in the review. My fellow colleague has 
been over at the White House. We have been providing 
information to the White House and are fully engaged. The only 
reason I was not over there was because I was out of town at 
the time.
    Senator Coburn. Thank you. That is great to hear. That is 
called appropriate response. Thank you.
    Senator McCaskill. We have a second panel with four 
witnesses. Does anybody else have one or two questions that 
they really want to ask these three witnesses before we move to 
our second panel?
    [No response.]
    I have two simple questions. Before Ferguson, had the three 
of you ever met?
    Mr. Estevez. No.
    Mr. Kamoie. No.
    Ms. Mason. No.
    Senator McCaskill. Not good.
    Second question, do any of you now have any policy that 
requires you to track any kind of usage data for the equipment 
you are providing that is considered military grade? Yes or no.
    Mr. Estevez. No.
    Mr. Kamoie. No.
    Ms. Mason. We do have activity reports that we require on a 
quarterly basis from our grantees about how they use our JAG 
funds.
    Senator McCaskill. Well, I would like to see and put in the 
record,\1\ since you are the only one that says--you claim you 
have usage data, I would like all the usage data that would 
show what military weaponry, camouflage, uniforms, helmets, all 
the things we saw in Ferguson, and the data you have about how 
that has actually been utilized by the recipients of your 
funds.
---------------------------------------------------------------------------
    \1\ The report appears in the Appendix on page 493.
---------------------------------------------------------------------------
    Thank you. Thank you all very much for being here.
    [Pause.]
    Thank you all for being here. I do not want to hurry you, 
but I want to make sure--this is a large panel, and we have 
people that want to ask questions. And time is ticking so I 
want to get started. Let me introduce this panel.
    Jim Bueermann is the president of the Washington, DC-based 
Police Foundation. The foundation, established in 1970, has a 
mission to advance policing through innovation and science. Mr. 
Bueermann previously worked for the Redlands Police Department 
for 33 years, serving in every unit within the department. He 
served as its chief for 13 years from 1998 to 2011.
    Dr. Peter Kraska is a professor and chair of graduate 
studies and research within the School of Justice Studies at 
Eastern Kentucky University. Dr. Kraska researches the changing 
role of police in society, including the relationship between 
the police and the military, as well as the special equipment, 
tactics, and training used by police over the last several 
decades.
    Mark Lomax is executive director for the National Tactical 
Officers Association (NTOA). Mr. Lomax previously served as a 
program manager for the United Nations in Liberia, West Africa, 
where he oversaw their police Special Weapons and Tactics Team 
(SWAT) and crowd control units. Mr. Lomax served 27 years with 
the Pennsylvania State Police, with a majority of his career in 
special operations assignments. Mr. Lomax was invited to 
participate in this hearing at the request of Chief Belmar of 
the St. Louis County Police Department. Mr. Lomax is 
accompanied by Major Ed Allen of the Seminole County Sheriff's 
Office.
    Wiley Price is a photojournalist, award-winning, I might 
add, photojournalist for the St. Louis American newspaper. Mr. 
Price is a native St. Louis resident who covered the police 
presence in Ferguson firsthand.
    And Hilary Shelton is the Washington Bureau Director and 
Senior Vice President for advocacy for the National Association 
for the Advancement of Colored People (NAACP), where he has 
worked on a wide variety of legislative and policy issues of 
national importance. Mr. Shelton, while being an important 
person with the NAACP, is also a St. Louis native. Welcome, 
Hilary. We are glad you are here.
    I would like to thank all of you for appearing today, and 
we will begin with your testimony, Mr. Bueermann.

    TESTIMONY OF JIM BUEERMANN,\1\ CHIEF (RET.), REDLANDS, 
          CALIFORNIA, AND PRESIDENT, POLICE FOUNDATION

    Mr. Bueermann. Distinguished Members of the Committee, 
thank you for this opportunity to appear before you to discuss 
this very important topic of Federal programs that provide 
equipment to our civilian police forces.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bueermann appears in the Appendix 
on page 91.
---------------------------------------------------------------------------
    As the Senator just mentioned, the Police Foundation's 
mission is to advance democratic policing through innovation 
and science. We conduct rigorous scientific research, provide 
technical assistance, and conduct critical incident reviews 
that help the police across the country become more effective.
    Like many Americans, I have been closely following the 
events in Missouri and the national discussion about the 
militarization of American civilian police forces. Central to 
this issue is the use of military-like equipment and tactics by 
the police.
    To many people, the use of armored vehicles, assault 
rifles, or SWAT teams is unwarranted and highly inappropriate. 
Conversely, to police officers, their use simply represents 
safer, more effective ways of handling the dangerous situations 
they are paid to resolve. I think both perspectives have merit.
    The police use of military-like equipment and tactics can 
either be appropriate or not depending entirely on the context 
of their use. The antidote to militarizing our police is 
community policing, transparency, accountability, and paying 
close attention to the culture of policing.
    While the Committee reviews these programs, I urge you to 
consider their benefits along with needed programmatic changes. 
There has been substantial positive impact on the public and 
officer safety from the programs that provide equipment to law 
enforcement.
    For example, 2 weeks ago, in Illinois, the Cook County 
Sheriff's Department used armored vehicles to get officers to 
the scene and extract six children and two adults being held 
hostage after a home invasion robbery. Two officers were shot 
during the 20-hour standoff, but the equipment prevented 
further injury to officers and helped with the safe recovery of 
the hostages.
    In West Bloomfield, Michigan, a suspect barricaded himself 
in a residential neighborhood, engaged in a firefight with the 
police, and killed a police officer. During the standoff, the 
police used their armored vehicle to safely evacuate the 
neighborhood.
    And, finally, this summer, the Las Vegas Metropolitan 
Police Department used rescue helicopters obtained through the 
1033 program 11 times during search and rescue missions in 
mountainous terrain. They also used boats obtained through the 
program six times for rescue missions on Lake Mead.
    Based on my experience in local policing and familiarity 
with the Federal programs that provide or fund local law 
enforcement equipment, I offer the following suggestion that I 
believe will strike a balance between the needs of the police 
and compelling community interests.
    Every policing agency that desires access to Federal 
surplus property via DOD's 1033 program should be required, as 
part of the application process, to provide proof that it has 
received public input and local governing body approval of the 
department's acquisition of the property; and that it has 
adequate, publicly reviewable training, transparency, and 
accountability policies in place.
    I believe it is important that the 1033 program be retained 
with appropriate transparency, accountability, and oversight 
guidelines incorporated. Completely eliminating them could have 
substantial impact on public safety, and doing so would make 
taxpayers potentially pay again for the same equipment they 
paid for while it was used by the military.
    I also recommend that Congress appropriate funds to 
adequately study this issue. There is a paucity of research 
into the militarization of the police and the impact of the 
Federal Government providing assistance to acquiring the 
equipment that may encourage this.
    In conclusion, I urge the Committee and Congress to examine 
and consider the Federal implications for advancing the 
following five guiding principles of sustaining democratic 
policing.
    First, the police and the community must constantly focus 
on community policing framed around a set of organizational 
values developed in concert with the community.
    Second, police organizations should reflect the communities 
they serve. When diverse communities see the police as not 
reflecting their members, they can lose faith in the police to 
understand their needs in meaningful ways.
    Third, policing agencies must provide their officers with 
appropriate and effective value-based training, accountability 
technology like body-worn cameras, and less lethal tools.
    Fourth, the police should utilize the best available 
scientific evidence about what works to control crime and 
disorder.
    And, finally, critical incident reviews should be conducted 
after every critical incident involving the police to capture 
lessons learned and translate them to lessons applied so events 
like those occurring in Ferguson do not happen again.
    Thank you for the opportunity to testify before you.
    Senator McCaskill. Thank you, Mr. Bueermann. Dr. Kraska.

 TESTIMONY OF PETER B. KRASKA, PH.D.,\1\ PROFESSOR, SCHOOL OF 
        JUSTICE STUDIES, UNIVERSITY OF EASTERN KENTUCKY

    Mr. Kraska. Senator McCaskill, Senator Coburn, Members of 
the Committee, and wonderful staffers, thank you for inviting 
me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kraska appears in the Appendix on 
page 99.
---------------------------------------------------------------------------
    Let me begin today's comments with two examples of police 
militarization, one old--in fact, it predates 9/11-and one new, 
this year in May.
    In September 2000, Federal law enforcement conducted a 
joint drug investigation with the Modesto, California, police 
department. Employing the Military Special Operations model, 
the Modesto P.D.'s SWAT team conducted a predawn dynamic entry 
into a family's home--suspecting the father, it turned out 
incorrectly, of being involved in low-level drug dealing. One 
of the children in the home--Alberto--was 11 years old and 
complied with all of the officers' screams to get into the 
prone position on his bedroom floor. A paramilitary police 
officer, standing over him with a 12-gauge shotgun, then 
accidentally discharged his weapon into Alberto's back, killing 
him.
    Now move forward to May of this year. A Georgia police 
department's SWAT team conducted a no-knock drug raid on a 
family's private residence. The officers threw a percussion 
grenade into the home, the device landed in an infant's crib 
next to his face, and then it detonated. Despite being comatose 
for a number of days and receiving severe lacerations and 
burns, the baby did survive. Not that it should matter, but the 
family was not involved in drug dealing.
    Some might dismiss these cases as mere anecdotes, but the 
facts, based on extensive national level scientific research, 
are clear. These examples are emblematic of an historic--yet up 
until recently little publicly noticed--shift in American 
democratic governance. The clear distinction between our 
civilian police and our military is blurring in significant and 
consequential ways.
    The research I have been conducting since 1989 has 
documented quantitatively and qualitatively the steady and 
certain march of U.S. civilian policing down the militarization 
continuum, culturally, materially, operationally, and 
organizationally--despite massive efforts at democratizing 
police under the guise of community policing reforms.
    The growth in militarized policing has been steep and deep. 
In the mid-1980s, a mere 30 percent of police agencies had a 
SWAT team. Today well over 80 percent of departments, large and 
small, have one. In the early 1980s, these agencies conducted 
approximately 3,000 deployments a year nationwide. Today I 
estimate a very conservative figure of 60,000 per year. And it 
is critical to recognize that these 60,000 deployments are 
mostly for conducting drug searches on people's private 
residences.
    This is not to imply that all police, nearly 20,000 unique 
departments across our great land, are heading in this 
direction. But the research evidence along with militarized 
tragedies in Modesto, Georgia, Ferguson, and tens of thousands 
of other locations demonstrates a troubling and highly 
consequential overall trend.
    What we saw played out in the Ferguson protests was the 
application of a very common mind-set: style of uniform and 
appearance and weaponry used every day in the homes of private 
residences during SWAT raids. Some departments conduct as many 
as 500 SWAT team raids a year, and just as in the two examples 
above, and in the Ferguson situation, it is the poor and 
communities of color that are most impacted.
    It is hard to imagine that anyone intended for the wars on 
crime, drugs, and terrorism to devolve into widespread police 
militarization. At the same time, it is also hard not to see 
that by declaring war, we have opened the door for outfitting 
our police to be soldiers with a warrior mind-set.
    To conclude, I mentioned that police militarization 
predates 9/11. This is not just an interesting historical fact. 
It is critical because it illuminates the most important reason 
or causal factor in this unfortunate term in American policing 
and American democracy. It is the following: Our long-running 
and intensely punitive self-proclaimed war on crime and drugs.
    It is no coincidence that the skyrocketing number of police 
paramilitary deployments on American citizens since the early 
1980s coincides perfectly with the skyrocketing imprisonment 
numbers. We now have 2.4 million people incarcerated in this 
country, and almost 4 percent of the American public is now 
under direct correctional supervision. These wars have been 
devastating to minority communities and the marginalized and 
have resulted in a self-perpetuating growth complex.
    Cutting off the supply of military weaponry to our civilian 
police is the least we could do to begin the process of reining 
in police militarization, and attempting to make clear the 
increasingly blurred distinction between the military and 
police. Please do not underestimate the gravity of this 
development. This is highly disturbing to most Americans, on 
the left and the right.
    Thank you.
    Senator McCaskill. Thank you, Dr. Kraska. Mr. Lomax.

   TESTIMONY OF MARK LOMAX,\1\ EXECUTIVE DIRECTOR, NATIONAL 
 TACTICAL OFFICERS ASSOCIATION, ACCOMPANIED BY MAJOR ED ALLEN, 
                SEMINOLE COUNTY SHERIFF'S OFFICE

    Mr. Lomax. Good afternoon. I would like to thank Chairman 
Carper, Ranking Member Coburn, Senator McCaskill, and Members 
of this Committee to have the opportunity to speak with you 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lomax appears in the Appendix on 
page 107.
---------------------------------------------------------------------------
    Since its inception in 1983, the NTOA has served as a not-
for-profit association representing law enforcement 
professionals in special operations assignments in local, 
State, and Federal law enforcement agencies. The mission of the 
NTOA is to enhance the performance and professional status of 
law enforcement personnel by providing a credible and proven 
training resource as well as a forum for the development of 
tactics and information exchange.
    The American law enforcement officer recognizes, probably 
more accurately than most, that they are not in conflict with 
the citizens they serve. To the contrary, the brave men and 
women of this profession willingly place themselves between 
danger and the public every day at personal sacrifice to 
themselves and their families. This is evident by the Law 
Enforcement Memorial, walking distance from where we sit today.
    Law enforcement agencies in the United States have taken 
advantage of the 1033 program from its inception, but certainly 
at a greater frequency after the terrorist attacks of September 
11, 2001. DHS/DOJ grants, and the DOD 1033 program allow 
agencies to acquire the necessary equipment rapidly and at 
considerable cost savings to the local taxpaying public. The 
1033 program has allowed local agencies to acquire heavy-duty 
high-wheeled vehicles, forklifts, generators, and vehicles that 
improve operational capabilities and responder safety.
    The threat that firearms pose to law enforcement officers 
and the public during violent critical incidents has proven 
that armored rescue vehicles have become as essential as 
individually worn body armor or helmets in saving lives. 
Moreover, in the DHS, FEMA type resource definitions, law 
enforcement and security resource document, it is recommended 
that SWAT teams have tactical equipment, including armored 
rescue vehicles, in the event of a disaster. Most tactical 
commanders utilize these resources judiciously and are 
sensitive to both their real and perceived appearance.
    However, it is not uncommon for agencies to take receipt of 
such equipment and receive little or no training on how to 
utilize it, when to deploy it, and equally as important, when 
not to deploy it. Prior to obtaining equipment from the 1033 
program or purchasing commercially utilizing DHS grant money, 
agencies are not mandated to demonstrate training levels for 
the use of that equipment. It is incumbent upon that agency to 
obtain the necessary training based upon regulatory or 
voluntary compliance standards associated with such equipment. 
Such training could take place at the requesting agency 
location.
    Another challenge is that there are not enough of the 
specialized law enforcement teams developed, specifically 
Mobile Field Force Teams, in every jurisdiction around the 
country. Consequently, when a law enforcement administrator is 
faced with a civil disorder event, they often deploy the only 
resource they have immediate access to--the local SWAT team. It 
is important to note that approximately 87 percent of law 
enforcement agencies in the United States have fewer than 50 
officers. With the exception of large metropolitan cities or 
jurisdictions that have had prior civil disorder events, most 
agencies have not invested in a mobile field force capability. 
There is also a general lack of training, regarding civil 
disorder events, for tactical commanders, planners, public 
information officers, and first-line supervisors. This must 
change.
    The NTOA published the NTOA SWAT Standards in 2011, which 
outlines the most basic requirements for tactical teams in 
terms of operational capabilities, training management, policy 
development, operational planning, and multi-jurisdictional 
response. The standard, however, is a voluntary compliance 
standard. Subsequently, many law enforcement leaders view them 
as ``unfunded mandates.'' The NTOA's position, though, is that 
when an agency makes the decision to develop a SWAT capability, 
it should also make the investment in the training, equipment, 
and best practices that are required to support such an effort.
    Again, on behalf of the 40,000 law enforcement 
professionals that the NTOA represents, I thank you for this 
opportunity to speak to you today on these current issues and 
challenges and look forward to answering any questions the 
Committee may have.
    Senator McCaskill. Thank you. Mr. Price.

  TESTIMONY OF WILEY PRICE,\1\ PHOTOJOURNALIST, THE ST. LOUIS 
                       AMERICAN NEWSPAPER

    Mr. Price. Good afternoon. My name is Wiley Price, I am the 
staff photojournalist at the St. Louis American newspaper in 
St. Louis, Missouri. I would like to first thank Senator 
McCaskill for inviting me here to this hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Price appears in the Appendix on 
page 209.
---------------------------------------------------------------------------
    The shooting death of Michael Brown, an unarmed teenager, 
by a Ferguson, Missouri, police officer on Saturday, August 9, 
2014, may very well become the turning point in moving forward 
in changing the way policing is conducted in this country, 
especially in neighborhoods of people of color.
    First, mandatory body cameras for officers patrolling our 
streets to ensure accountability for the way citizens are 
addressed during routine stops. This policy would allow us to 
examine the methods police use during these stops. There are 
special challenges to policing in urban areas where there are 
strong feelings, often negative, about the conduct and role of 
the police.
    The uprisings in Ferguson are an example of inept and 
insensitive police behavior at the highest decisionmaking 
level. It raises the question of how much force is appropriate 
to control a group of angry protesters armed initially with 
rocks, bottles, and, later, Molotov cocktails.
    What police used to defend themselves at the early stage of 
the confrontation was a high level of military weaponry not 
often seen on the streets in the United Sates. What we saw were 
large military-style weapons including armored vehicles 
normally seen on the national news during conflicts concerning 
the Middle East war zones. Most Americans would not be so 
shocked if this were a response to an overt terrorist attack on 
an American city, but not during a spontaneous protest over the 
shooting of a young African American male by a white police 
officer while walking in the street in the middle of the day. 
Most believe that if we can spend this kind of money on 
weapons, why not use those same resources to better train the 
police in community policing and train them also on the best 
way to resolve conflict?
    If heavy military weapons are to be deployed, they should 
be in the hands of trained officers subject to competent high-
level police command. This show of military might in Ferguson 
by the police only escalated the understandably strong feelings 
felt by the very people that the police are sworn to serve and 
protect. The days of unrest were followed by growing protest 
from people who already felt disrespected and frustrated by the 
local law enforcement on a daily basis.
    That concludes my statement.
    Senator McCaskill. Thank you, Mr. Price. Mr. Shelton.

 TESTIMONY OF HILARY O. SHELTON,\1\ WASHINGTON BUREAU DIRECTOR 
  AND SENIOR VICE PRESIDENT FOR POLICY AND ADVOCACY, NATIONAL 
       ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE

    Mr. Shelton. Thank you very much, Senator McCaskill. I want 
to thank Senator Carper and Senator Coburn and all the others 
that are gathered here today. I want to thank you so much for 
inviting me here to testify and for soliciting the input of the 
NAACP on this very important topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shelton appears in the Appendix 
on page 210.
---------------------------------------------------------------------------
    As you mentioned, my name is Hilary Shelton, and I am the 
Director of the NAACP's Washington Bureau and serve as Senior 
Vice President for policy and advocacy.
    The NAACP deeply appreciates the needs of local 
governments, including law enforcement agencies, to secure 
equipment as cost-effectively as possible. We have supported 
increased resources and personnel for local police departments 
since the founding of the association 105 years ago. Over the 
last couple of decades, given the shrinking State and Federal 
budgets and the oftentimes increasing demands, the communities 
represented and served by the NAACP seem to have suffered 
disproportionately from reduced State and local funding.
    Our concerns are when military equipment, weapons of war 
which are commonly used to fight an avowed enemy of our 
country, are transferred to local domestic law enforcement 
agencies with little or no oversight, training, or specific and 
clear integration when and how they are used in civilian 
circumstances.
    The tragic killing of Michael Brown in Ferguson, Missouri, 
the ensuing protests, and the resulting demonstrations of force 
by local law enforcement attracted the attention of many to a 
heretofore little known program, the Defense Department's 1033 
program, by which the Federal Government transfers excess 
military equipment to State and local law enforcement agencies. 
While many Americans were rightfully upset by the apparent 
militarization of community-based law enforcement agencies, it 
is a sad commentary on race in America that this is not a new 
phenomenon to most Americans of color.
    The war on drugs and the war on crime have been 
predominantly waged in racial and ethnic minority communities, 
and too often against African Americans. Since 1989, military 
equipment has been used by law enforcement agencies to fight 
the war on drugs. Thus, it should be no surprise that racial 
and ethnic minorities have grown accustomed to seeing weapons 
of war in our communities, on our streets, and even entering 
our homes.
    On Saturday, August 9, 2014, an unarmed, 18-year-old, 
college-bound African American teenager named Michael Brown was 
shot to death by a police officer in Ferguson, Missouri. 
According to nearly every report, the ensuing protests began 
peacefully. The people were angry, admittedly and 
understandably outraged, but initially peaceful. Their protests 
were met by local law enforcement agents in warfare type mine-
resistant ambush protected vehicles, or with military-style 
assault weapons aimed at them.
    The resulting impression on the people of Ferguson and on 
people throughout our country and the world who were watching 
these events is that these Americans were being marginalized, 
that their concerns, their anger, and their protests were not 
being valued or respected by local law enforcement.
    One CNN reporter, as a matter of fact, even said it looked 
more like Belfast or the Middle East than the heartland of 
America.
    Thus, the fact that the population of Ferguson is over 67 
percent African American has not been lost on many of the 
protesters, nor on the United States or international 
observers. As a matter of fact, I was at the United Nations 
when all this broke loose, and they were asking me questions 
about Ferguson. Even people who could not speak English knew 
the word ``Ferguson.''
    So what steps does the NAACP recommend to solve the 
problems associated with the overmilitarization of law 
enforcement agencies and to build trust and security within 
these communities?
    First, we must change the paradigm which drives our 
criminal justice system. We need to move away from the failed 
war on drugs and war on crime scenarios, and law enforcement 
needs to be trained to stop stereotyping people based on what 
they look like, the clothes they wear, and the neighborhoods in 
which they live.
    If the Department of Defense's 1033 program is allowed to 
continue, it should be restructured to emphasize non-lethal 
equipment and that the equipment be used not to pursue the 
flawed war on drugs or civilian protests and demonstrations, 
but rather that it be used to promote the idea that law 
enforcement is designed to protect and serve the citizens who 
are within their jurisdiction.
    Included in the requirements necessary to receive such 
equipment must also be policies, training, and oversight which 
includes the End Racial Profiling Act, which is pending in the 
House and the Senate, and the Law Enforcement Trust and 
Integrity Act, which is being prepared for reintroduction by 
Congressman John Conyers.
    Second, all domestic law enforcement agencies should also 
develop their own internal policies calling for thoughtful 
restraint, and proof of these policies should be a requirement 
before any equipment transfer or funding occurs.
    And, third, we need full transparency and disclosure. Not 
only should the Department of Defense be required to disclose 
what equipment they have distributed and to whom, but State and 
local law enforcement agencies must also be required to 
publicly report on the equipment they have requested and 
received and the intended purpose.
    And, finally, the NAACP would like to strongly advocate for 
more programs such as the Department of Justice Community 
Oriented Policing (COPS), program and for an increase in the 
funding of COPS programs. The COPS program is intended to 
incentivize better law enforcement practices through community 
engagement. It remains the primary vehicle by which the Federal 
Government rewards innovation and research on police 
transparency and accountability.
    In summation, American policing has become increasingly 
militarized through the acquisition and use of weapons and 
tactics designed for war. The lines between Federal military 
force and civil law enforcement are becoming increasingly 
blurred. Sadly, communities of color have historically borne 
the brunt of this obfuscation. We need to correct this problem, 
not just check it. We need to continue to strive for a 
democracy under which all Americans can live. And we should not 
allow any American community or government entity to be 
considered at war with any other.
    I thank you again, Chairman Carper, Senators Coburn and 
McCaskill, and all the others that are here today, and I 
certainly look forward to your questions.
    Senator McCaskill. Thank you so much.
    I am going to go ahead and defer my questions and allow the 
other Senators who are here to go first. Senator Coburn.
    Senator Coburn. Yes, thank you, and thanks for your 
testimony.
    Mr. Bueermann, at what point do you think the Federal 
Government's obligation to local law enforcement begins?
    Mr. Bueermann. Well, that is a great question. I think that 
one of the benefits of the Federal Government is trying to 
create a national coherence around what policing should look 
like all across the United States, and that is a difficult 
place for the Federal Government to be. There are leadership 
training programs like the National Academy that the FBI puts 
on at the FBI Academy that helps police leaders across the 
United States better understand these kinds of issues that we 
are talking about today. So certainly that would be an 
appropriate role for the Federal Government.
    As somebody who used to be a police chief, I really 
appreciated the ability to acquire equipment. In my department 
we used it primarily for vehicles and office equipment for our 
community policing stations and our recreation programs that we 
could not have afforded if the 1033 program had not existed.
    So from a local perspective, I thought that was a wonderful 
way for us to get a return on our Federal tax investment. But I 
certainly understand the issues that are at play in this 
discussion.
    Senator Coburn. Dr. Kraska, I appreciate you coming, and I 
appreciate you working with us.
    Tell me what the difference is between a militarized and 
increasingly Federalized police force and a standing army.
    Mr. Kraska. It is actually a bit of a complicated history 
that I will not get into too much, but we have to remember that 
the Posse Comitatus Act of 1878 had been in place untouched for 
quite a long time until the 1980s drug war. And it was not 
until the 1980s drug war--it was actually the Reagan 
Administration that wanted to completely repeal Posse 
Comitatus, but what instead happened is they just amended it 
significantly to allow for cross-training and weapons 
transference.
    Just as an aside--I do not want to make too much of an 
aside, but we also have to remember that the Department of 
Defense has been very actively involved in training local 
police departments as well, not just providing them equipment 
but providing them training. I have a great quote--I am not 
going to read it now, but if you ask me to read it, I will--
that talks about even having Navy SEALs and Army Rangers come 
to a local police department and teach them things. So it is 
not just weapons transference.
    The Federal Government has increasingly since 9/11 played a 
significant role in accelerating these trends toward 
militarization, and, the extent to which the 1033 program, the 
Department of Homeland Security funds, et cetera, have 
contributed to it, I would certainly call it significant. But I 
think we have to remember that the militarized culture of a 
component of policing--and it is just a component of policing. 
This is not a unified phenomenon in all the police of the 
United States of America. We have a police department right 
next to us, the Lexington P.D., very smart, very wise. They do 
not do this kind of thing at all, and they would never do it.
    So the policing community is a bit split over this, and I 
do not want anybody to get the impression because of the 
experts we have heard that policing is all for this stuff, 
because it is just not true. There are lots of folks that are 
not.
    Anyway, back to Federalization. So I think the Federal 
Government has played a significant role in probably the last 
10 to 14 years.
    Senator Coburn. All right. The rest of my questions I will 
submit for the record so we can move on in our time.
    Senator McCaskill. Senator Johnson.
    Senator Johnson. Thank you, Madam Chairman. Dr. Kraska, in 
your testimony, what I have written down in my notes is 
equipment versus procedures versus operations. How much of it 
is really about procedures, responding to just events in 
society versus the actual equipment? I mean, what is causing 
what?
    Mr. Kraska. Great question and, of course, difficult to 
answer. I do know that the militarization trend began as part 
of the drug war. It has not had anything to do with terrorism. 
It has not had anything to do with threats to national 
security. It has had everything to do with prosecuting the drug 
war.
    That is when we saw the precipitous rise in not only the 
number of SWAT units, but their amount of activity. That is 
when we saw departments doing 750 to 1,000 drug raids per year 
on people's private residences. That is when we saw police 
departments all over the country in small little localities 
sending off two or three officers to a for-profit training 
camp, like Smith & Wesson or Heckler & Koch, getting training 
and coming back to the department and starting a 15-officer 
police paramilitary unit with no clue what they were doing 
whatsoever.
    That all happened as a part of the drug war. So I have a 
hard time making any sort of credible analysis that what we are 
seeing is just a reaction to an increasing insecure homeland 
situation. This stuff has been well in place and it is still 
absolutely happening today in the same way it was in the 1990s 
and the 2000s.
    Senator Johnson. So again, I am coming from a manufacturing 
background trying to solve problems going to the root cause. 
What I am hearing, because again, in my briefing, this 
equipment for transfer really first started from a Defense 
authorization bill targeted at the drug war.
    Mr. Kraska. Absolutely.
    Senator Johnson. So I know in these last 3 years because of 
another hearing, we spent $75 billion fighting the war on 
drugs. We are not conquering it, are we? So what do we need to 
do? And I will ask Mr. Lomax. What do we need to do 
procedurally? What is the solution here?
    Mr. Lomax. Thank you, Senator. The solution relative to 
equipment and procedures----
    Senator Johnson. If this was all really caused initially by 
the drug war, the militarization buildup of this, is in 
reaction to the drug war, these no-knock raids are about drugs, 
what is the solution?
    Mr. Lomax. I think the solution starts at the top, 
leadership. The solution comes from decisionmaking, policy, 
procedures. Getting back to what your initial question was to 
Dr. Kraska, the nexus between equipment and procedures, I think 
procedures come first, policy, documentation, transparency, 
decisionmaking.
    So again, it is not the equipment per se. It is who is 
making those decisions on how to use it, how to deploy, or when 
not to deploy it.
    Senator Johnson. I mean, are we making any progress on the 
war on drugs at all? We have been engaged in this for decades 
now.
    Mr. Lomax. Again, that is a question that needs to be taken 
up by the legislators and Congress and the policymakers as far 
as how we are doing on the war on drugs.
    Senator Johnson. And I realize these questions are somewhat 
removed from militarization of the police force, but again, I 
am looking, based on the testimony, this is the reason this 
militarization began. Mr. Shelton, what is your solution? I 
mean, obviously, drugs have devastated communities. Crime has 
devastated communities.
    Mr. Shelton. It has to change. The paradigm that we are 
utilizing now, criminalizing in the way that we are and 
actually putting people in prison along these lines is 
outrageous. Quite frankly, as mentioned by Dr. Kraska, we have 
2.4 million Americans in jail, about 50 percent of those for 
drug-related offenses. They are non-violent offenses.
    You talk about a health care approach to problems of the 
drug problem in the United States and get away from much of the 
criminal, now military, approach to our drug problem in this 
country. I should talk about problems with the police officers 
and the over-aggression and even practices of racial profiling. 
We have some strategies for that as well.
    Senator Cardin here, one of your colleagues, has a bill 
that is now pending before the U.S. Senate called the End 
Racial Profiling Act that goes a long way to help restore the 
trust and integrity necessary for law enforcement to be 
effective. We know that will go many miles toward the direction 
of fixing the crime problem in our society.
    As we talk about these issues, it makes no sense to me that 
we have 79,288 assault rifles that were actually given by the 
Department of Defense to local police departments, 205 grenade 
launchers, 11,959 bayonets. And I am trying to figure out what 
they are going to do with 3,972 combat knives. But indeed, that 
is what with local policy departments now. It makes no sense.
    Senator Johnson. So again, war on drugs, but also war on 
crime. Mr. Shelton, a recent article written by Walter 
Williams, he lists the statistic from 1976 to 2011, there has 
been 279,389 African-Americans murdered. It is a rate of about 
7,000 per year. Ninety-four percent of those murders are black 
on black. I mean, that is a real crime problem that you have to 
be concerned about.
    And by the way, I would think local police departments are 
also concerned about it.
    Mr. Shelton. Well, absolutely. As a matter of fact, the 
issue dealing with crime in the African-American community goes 
back to our founder 105 years ago, or one of our founders, 
W.E.B. Du Bois. Clearly, the crime problem in the African-
American community has to be addressed, but it cannot be 
addressed successfully if we have the distrust in police 
officers that we are seeing because of programs like this one.
    We are going to have to establish a new trust pattern in 
our country. Also, I was very happy to hear Dr. Kraska mention 
the issue of those who are most affected in addressing the 
issues of crime in any community throughout this country are 
those that are reflective of those communities in which they 
are there to serve. All that has to be part of the paradigm.
    The only time things begin to cool off, in Ferguson, 
Missouri, quite frankly, is when the first African-American 
Attorney General of the United States went to Ferguson to show 
that the top law enforcement officer in our country was there 
and that their concerns be taken very seriously. That works 
across the board.
    Senator Johnson. OK. My time is running out. Thank you, 
Madam Chairman.
    Senator McCaskill. Thank you. Senator Ayotte.
    Senator Ayotte. Thank you. One of the things that I am 
trying to understand is everything depends on the situation--
would you agree with that--in terms of what is appropriate to 
deploy, what is appropriate in terms of a response, and also I 
think it all comes down to appropriate training as to how to 
respond to a situation. Because would you all agree with me 
that we are going to respond differently to a situation like 
the Marathon bombing versus a situation like Ferguson and part 
of that is training and what we need to respond to those 
situations may be different.
    Mr. Shelton. If I might begin? Just before training comes 
policy. What we need is a clear policy on how to respond to 
circumstances like that we experienced in Ferguson and other 
places. Policy, then training, and then accountability. Those 
are the triumvirate, I believe, that moves this issue along.
    Senator Ayotte. So one of the things I wanted to followup 
on this idea of, for example, SWAT teams, because having worked 
with the police in my State in a number of settings, they have 
had to respond to some pretty dangerous situations that did 
involve, for example, a drug crime where you had, you know, 
high level individuals who were quite dangerous, quite armed, 
and that it was the most appropriate that a SWAT team respond 
because they had the most training of how to deal with a 
situation like that versus sending, you know, one patrol 
officer or a handful of patrol officers that are not oriented 
toward dealing with a situation where you have, for example, an 
armed drug dealer, not necessarily a user, but someone who is 
profiting off the situation.
    Then I have been to situations where we had a hostage 
situation and we had a SWAT team situation there where, 
truthfully, I was glad that the SWAT team was there because 
they had the training and they trained particularly for hostage 
situations that would allow the police to have the right 
training and to know how to negotiate, No. 1, to know how to 
handle a situation, not to have bystanders harmed.
    So what I am trying to understand is to make a broad brush 
of saying, 60,000 SWAT operations. I think that is a pretty 
broad brush. So I am trying to get at from maybe all three of 
you and the first who have commented on this, it seems like it 
is appropriate for us to have some individuals who have this 
type of training because I have been there at these scenes with 
them where I would have wanted the right SWAT team trained to 
deal with the situation, and we successfully ended situations 
because the people there had the right training and trained for 
this specifically, were not just taking the patrol officer off 
the street to address it.
    So how do we distinguish from that and this situation 
where, the public is--it is a protest situation where it is 
people exercising their First Amendment rights? This is not an 
easy question to answer, but I think this is what we are 
grappling with here, particularly, particularly I think we have 
asked a lot more of the police post-9/11 in terms of what 
response we have asked of them as first responders, and maybe 
we have sent mixed messages.
    So I would like to get your comment. I know that is more of 
a statement, but I would like to hear your comment on some of 
those thoughts.
    Mr. Bueermann. So, Senator, if I can start this off? What 
you have just articulated, it is a great question that, 
ultimately, I think is the crux of this discussion because 
anybody who thinks that we are not going to have tactical teams 
or high-powered weaponry in policing in the United States just 
has not been paying attention to the realities of police 
officers.
    As Mr. Lomax said, the memorial not far from here has 
20,000 names on it of heroic Americans who gave their life 
trying to protect their own communities. So there is a time and 
a place for any one of these particular tools. I made reference 
to the FBI's national academy. One of the problems we have in 
this country is there is not a national coherent about when we 
should use these particular tools.
    You can find out the hard way. This is the rationale for 
doing critical incident reviews, to understand those learning 
opportunities. But at the end of the day, it comes down to 
leadership, whether that leadership is expressed by the local 
city council that selects the police chief, by the police chief 
himself or herself, that decides whether they should or should 
not have a tactical team and under what circumstances they 
should use that.
    If you leave it to the police officers, like any of us, 
they have a burning desire every day to go home to their 
families. And so, much of their world is framed around the 
perception that what I am about to do, the service of a search 
warrant, could be dangerous. I have personally served lots of 
search warrants and I understand----
    Senator Ayotte. Well, not to interrupt you, but my own 
State in the last few years, we lost one officer exercising a 
search warrant in a drug situation and we lost another one in a 
domestic violence, executing an arrest warrant.
    Mr. Bueermann. And I do not know any police officer that 
does not recognize that nobody made them become a cop, that 
that is a voluntary occupation and they know the inherent risk 
in that. The question comes in the balancing of this, and I 
think many of the members of the panel have touched on this, 
that ultimately, this leadership issue is a function of the 
relationship that the police department has with the community.
    Professor Kraska talked about the police department next 
door to him that has a great relationship and they would not do 
certain things. At the same time, if they needed a tactical 
team, I have no doubt, to protect their citizens or their 
officers they would employ that. It is when you use it and that 
common sense and that wisdom that comes from leadership and the 
proper training. That is where, I think, the Federal Government 
should spend a lot of its attention on, how do you stimulate 
that ability to do the right thing.
    Mr. Kraska. Oftentimes these kind of conversations devolve 
into an either/or type of argument and it is really critical to 
recognize that there are absolutely lots of situations, 
Columbine, for example, where you have to have a competent, 
professional response. A use of force specialist, military 
special operations folks, police specialists, whatever you want 
to call them, you have to have that, no doubt.
    What I was talking about was 60,000 deployments. I was not 
talking about 60,000 deployments for those situations. Those 
situations are incredibly rare. Thank goodness they are 
incredibly rare. Those situations absolutely require a 
competent response, active shooter, terrorist, whatever kind of 
situation.
    Our research demonstrated conclusively that 85 percent of 
SWAT team operations today are proactive, choice-driven raids 
on people's private residences, 85 percent. What that means is 
that the original function of SWAT in the 1970s----
    Senator Ayotte. Right.
    Mr. Kraska [continuing]. Was the idea that SWAT teams were 
to save lives. They were to respond in a laudable way to very 
dangerous circumstances, to handle those circumstances well. 
What happened during the 1980s and early 1990s drug war is that 
function flipped on its head. We went from these teams 
predominantly doing reactive deployments, maybe one to two of 
these in an entire municipality, one to two a year. Smaller 
jurisdictions, probably something like that would not happen in 
a hundred years, but they were there to handle it.
    This has devolved now into what I am talking about, 
widespread misapplication of the paramilitary model, 
misapplication. Unjustified growth, having many smaller police 
departments. Most of these departments are small. Our research 
showed that 50 percent of these small police departments, 50 
percent of them, are receiving less than 50 hours of training 
per year for their SWAT team. The recommended amount from the 
NTOA used to be 250. I think they have reduced it to 200, 250 
hours versus 50 hours.
    These are not well-trained teams. These are a localized, 
18,000 police departments all doing their own thing with no 
oversight and no accountability. And that is why we are seeing 
and we have seen hundreds of these kinds of tragedies that I 
have mentioned, but also lots of terrorized families that have 
been caught up in these drug operations and drug raids. Thank 
you.
    Senator Ayotte. Thank you. Anybody else?
    Mr. Lomax. Senator, just a couple of comments relative to 
the SWAT that you saw. There is a need, like the panelists have 
discussed in the last couple of minutes. The No. 1 priority of 
SWAT is to preserve life, No. 1, and we think of a SWAT team--
most people just think of a tactical entry team. That is part 
of a SWAT team. You have intelligence, you have negotiators, 
you have security and so forth.
    So again, the No. 1 goal of a SWAT team is to preserve 
life, whether it is the hostages, civilians, even the suspect. 
So again, like what Dr. Kraska said, over the many years, the 
use of SWAT has been--outreached its main purpose. But going 
back to the reason for a SWAT is those small particular 
situations that you have personally observed where the 
training, the equipment, the expertise saved lives.
    Senator McCaskill. Thank you, Senator Ayotte. For Mr. 
Bueermann and Mr. Lomax, I am very sensitive to the cry that 
goes up about unfunded Federal mandates, but this is a little 
bit of a different situation. We are pushing, in wholesale 
fashion, military equipment to local police departments. Do you 
sense that the police community would be offended if we put a 
few more rules of the road on their ability to receive these 
resources from the Federal Government?
    Why would we not require that if you are going to get 
Federal funding in this space, that you would have to have 200 
hours worth of training and that the size of your police 
department would be relevant to the decisions as to what you 
would receive, and that a SWAT team on a very small community, 
particularly one that is a suburb where there could be regional 
access to specialists in the rare but very, very important 
situation where that kind of training is absolutely essential 
to protect lives of innocent people, and most importantly, the 
lives of the police officers.
    Why can we not begin to do more with--if we are going to 
give you money, we are going to make you jump through a few 
hoops. Is that something that you think the police community 
would not accept and understand, that this has gone too far?
    Mr. Bueermann. I have had this conversation with several 
police chiefs since Ferguson erupted and I do not think that 
they would be alarmed by this. I think there is an expectation 
that there is going to be an adjustment in the program, and the 
thoughtful police chiefs and sheriffs that I have spoken to 
about this would agree with what you just said, that there 
needs to be some governing effect on the transfer of some of 
this equipment.
    I do not think you have an objection, other than the one 
you had earlier about if you are giving away equipment, you are 
buying--how does that make sense about office equipment, but 
certainly tactical equipment, whether that be armored vehicles 
or guns, should be connected. I have made some suggestions.
    With a local public input capacity, a public hearing about 
this, and some guidance from the government relative to 
accountability measures like that body-worn cameras or training 
issues, because many of those arguments local police chiefs 
would be making to their local city councils, and some of those 
arguments fall on deaf ears. They cannot get the councils to 
pay attention to it because there is a price tag attached to 
that. I think you actually might be helping many police chiefs 
in this country elevate the level of training that they would 
like to see their people receive.
    Senator McCaskill. Mr. Lomax, and then I will ask Dr. 
Kraska.
    Mr. Lomax. Yes, I agree with my colleague here that, No. 1, 
for the vast majority of chiefs and sheriffs out there adding 
extra steps as far as documentation, policy, and accountability 
would not be a problem. I think in light of the fact that this 
program has done tremendous contribution to police departments 
in the last 20-plus years, that right now there definitely 
needs to be a paradigm shift, a way of thinking differently, 
because perception is reality.
    Right now the perception is there is a militarization of 
policing, which becomes reality to a lot of people. The added 
steps, whatever they may be, for this 1033 program, I think, 
would be a welcome sign, because also it would kind of ensure 
training. And again, as Jim mentioned, it will give them more 
power to say, we need more training in order to procure this 
equipment.
    And also, there needs to be local input. I believe Senator 
Johnson mentioned it earlier, that this should be a local 
issue, too. From the State to the locals, they should have 
input into their police departments and how they are properly 
equipped.
    Senator McCaskill. Dr. Kraska.
    Mr. Kraska. Excuse me for being a professor and talking on 
and on, so I will actually read a thing that I had written 
before, hopefully pretty quickly. If it were possible to 
provide funds and programs that allowed a small, tightly 
regulated component of U.S. police to obtain military grade 
equipment for the extremely rare terrorist or active shooter 
situation, perhaps these programs might be of some benefit.
    However, the myriad and unavoidable unintended consequences 
of such programs render them not just dubious, but dangerous. 
Military gear and garb changes and reinforces a war fighting 
mentality among civilian police where marginalized populations 
become the enemy and the police perceive of themselves as a 
thin blue line between order and chaos that can only be 
controlled through military model power.
    The ethic, the massive community policing reform programs 
intended to instill in American policing, that is an ethic of 
community empowerment, developing authentic trust between the 
community and police, democratic accountability, all those 
types of things, have been smoothly displaced by a military 
paradigm.
    A recent edition in COPS Magazine by the Director of COPS, 
said very clearly. He said, We are seeing the growing 
militarization of American policing lead to the destruction of 
community policing. So it is a cultural problem. It is not just 
a regulation, let us put a few tweaks and bumps here.
    When you hand these departments this level of weaponry and 
these goods, it changes their mindset. Remember, most of these 
departments have 25, 30, 50 officers. Fifteen of them serve on 
a SWAT team. Now they have an MRAP, an armored personnel 
carrier, a $325,000 armored personnel carrier paid for by 
Homeland Security. What do they say to themselves? Here is an 
example.
    ``We have racial tensions at the basketball game. We are 
going to bring the MRAP to the basketball game on Friday 
night.'' That is a quote. Changes their mindset. So I cannot 
see a way that the transference of military goods from wartime 
to our civilian police agencies is ever a good idea.
    Senator McCaskill. It is interesting you say that because 
in preparing for this hearing, we took a look at a search on 
Amazon for ``police officer toys.'' And what came up, and it is 
in the packet of pictures,\1\ the next picture,\2\ the one with 
the--yes. This is the first thing that came up. And this is a 
military helmet. It is a hand grenade. Obviously, the kind of 
weaponry that we have not traditionally thought of police 
officers.
---------------------------------------------------------------------------
    \1\ The pictures submitted by Senator McCaskill appear in the 
Appendix on page 233.
    \2\ The picture submitted by Senator McCaskill appears in the 
Appendix on page 258.
---------------------------------------------------------------------------
    Now, these are what parents are buying for their children 
who say they want to grow up and be police officers. So this is 
something that has gotten, I think, into our culture that is 
very damaging. Speaking of community policing, I have watched 
as community policing has gone down and down and down--and by 
the way, the Homeland Security grants have not gone down--in 
fact, the Homeland Security grants are bigger now than 
community policing.
    So why is it that I do not hear as much from my police 
communities and the lobbying organizations about the cuts to 
community policing like I do when there is any talk about UASI 
or the Homeland Security grants. Why is it that there does not 
appear to be the hue and cry? We need the voices of the police 
community lobbying for community policing money.
    I watched community policing work as a prosecutor. I 
watched it work with the drug problem, a serious drug problem. 
That and drug court were two things that really were working in 
Kansas City. So what do you attribute the fact that the 
policing community does not seem to be as worried about the 
funding for community policing as they are for some of these 
streams of funding that are buying all of this weaponry?
    Mr. Bueermann. This is a cultural aspect of policing. But 
it also is the responsibility of every American, quite frankly, 
to say to their locally elected people that this is what we 
expect from our police department. We expect our police 
department to be one that is fair and equitable, that treats 
everybody with dignity and respect. At the same time, they 
grapple with very difficult and challenging situations.
    The best counter terrorism strategy in the United States 
that the local police can do is community policing. There is an 
absolute need, and you have heard it from everybody that is up 
here today in front of you, to co-produce public safety between 
the police and the community, and that will never happen if 
there is distress, if the police departments do not reflect the 
community they serve, if we do not have a constant discussion.
    If there is any silver lining that comes out of the events 
in Ferguson, it is that we will begin this discussion that 
should have happened probably in 1997, not in 2014, about how 
we use this equipment, whether it comes from a Federal program 
or out of a city's general fund, in an appropriate way that 
does not damage the relationship the police have with the 
community.
    If we do not do that, then we should not be surprised when 
that becomes the norm sometime in the future.
    Senator McCaskill. What about the idea that if this were an 
active shooter situation or hostage situation or terrorism 
situation, that some of this equipment be housed on a regional 
basis under the control of the State National Guards to then 
act as an access point that would provide more accountability 
as to when it is utilized and would require that it would not 
utilized by anyone who had not had appropriate training and it 
would only be utilized in those circumstances where it really 
would save lives and protect police officers, as opposed to the 
incredible change we have seen that these are now, OK, we have 
this thing in the shed, let us figure out some way to get out 
and use it.
    Mr. Bueermann. I think you have just articulated the reason 
we should study this particular phenomenon more at the same 
time we are trying to work on solutions, because we do not know 
enough about how this equipment is used. We heard that from the 
earlier panel.
    Senator McCaskill. They have no idea. And by the way, 
Justice Department said they do. They just know what they are 
buying with it. They do not know how it is being utilized. None 
of them know how it is being utilized.
    Mr. Bueermann. We should spend more time and money 
researching this. I think you make a great point about 
regionalizing certain kinds of assets and there are lessons 
that we could learn from other fields that do this. This could 
easily be one of the guidelines that is attached to this kind 
of program, that you have to demonstrate what the regional 
approach is to using these kinds of equipment. And we see that 
already in some other Federal programs. But this should be a 
regional asset and not necessarily a localized asset.
    The problem is there are 17,000 police departments in this 
United States. Each one has a slightly different challenge in 
front of them, and so there needs to be a thoughtful approach 
to this that ties this stuff together. I think that ensuring 
that the locally elected body weighs in on this, that local 
communities have an opportunity to voice their opinion, whether 
this makes sense or it does not make sense for us to have this 
particular piece of equipment, means that there is a much 
greater likelihood that you are going to see a regional 
approach to these things and not necessarily an individual 
department where a one-officer department has an MRAP. I mean, 
there is a story there that we should know more about.
    Senator McCaskill. Or 13 assault grade rifles----
    Mr. Bueermann. We should know more about that.
    Senator McCaskill [continuing]. For one sworn officer. I 
mean, that, obviously, is almost comical it is so out of 
bounds. One of the things that I witnessed in Ferguson, and I 
would like you to weigh in on this, Mr. Price, was the chicken 
and egg situation that really occurred, where you had a 
spontaneous demonstration, you had--the vast majority of which 
was very peaceful beginning on Saturday.
    We did have some looting on Sunday night. But aside from 
the looting on Sunday night, the vast majority of it was 
peaceful up until the following weekend when you began to see a 
whole lot of people, embedded among the peaceful protesters, 
that were there for a confrontation. There is no question in my 
mind that the idea that all of this equipment was brought out 
early in the week contributed to a mentality among the peaceful 
protesters that they were being treated as the enemy.
    Mr. Price. That is correct.
    Senator McCaskill. That they were the enemy.
    Mr. Price. Yes.
    Senator McCaskill. That this was a military force and they 
were facing down an enemy. These were peaceful protesters that, 
in America, we are supposed to be celebrating as part of our 
constitutional heritage. Talk about, Mr. Price, how the freedom 
of the press worked in here. What were the challenges you faced 
as you were there with your camera, day in and day out, from 
being able to cover what was going on because of that mentality 
that was almost a siege mentality that began really on Monday 
following the shooting on Saturday.
    Mr. Price. Well, Senator, one of the big problems I had 
with the police was that sometimes they lumped the media in 
with the protesters, particularly during the daylight hours 
when they took on a policy of no standing protester or media 
could be found stationary. And the problem I had with that was, 
you already have us locked into a 2-point mile radius so we are 
right here in front of you. But yet, they wanted us to keep in 
motion. And I was thinking to myself, would it not be easier if 
once they do slow down, you have them corralled in one 
location, here we are, and there is 80 to 100 people standing 
here. Why should we continue to move?
    And particularly when you are also asking the photographers 
to move with them. There was some tussle from time to time. I 
even saw a couple of the CNN correspondents while they were 
live on the air being forced, 20 or 30 feet down a certain 
area. I felt like they were aggravating a peaceful stance. 
Well, now they are tired of walking up and down the street. Now 
they are going to stand and chant. But no, you want to keep 
them in motion and you want the media to go with them.
    I felt like they were aggravating the situation as opposed 
to keeping it peaceful.
    Senator McCaskill. I am assuming tactical officers receive 
training about when putting in this kind of military presence 
during daylight hours when you have lots of children and 
elderly? I mean, this crowd. Yes, there were some young people 
in the crowd, but it was the middle of the afternoon and you 
had a mounted sniper weapon pointing at people that never ever 
envisioned having someone point a sniper weapon.
    This happened on Wednesday afternoon. It was about three 
o'clock in the afternoon that that occurred. So is there 
somewhere in the training that that would be appropriate under 
those circumstances?
    Mr. Lomax. Senator, I am not sure of the particulars of 
what was going on at that time. Hopefully, the DOJ 
investigation and other investigations will determine what was 
going on, because a lot of times there may be intelligence out 
there that something is going on that maybe we do not know what 
is happening.
    Senator McCaskill. Well, believe it or not, I was told that 
the reason that happened is that he was using his scope in 
order to observe the crowd. Well, have they heard of 
binoculars? It seems to me there is a better way to monitor a 
crowd that is peacefully protesting than pointing mounted 
sniper weapons at them under those circumstances.
    I mean, it seems common sense would tell you that is going 
to make the situation much worse, not make it better.
    Mr. Lomax. Yes, you are right.
    Senator McCaskill. I was told that he was up there in order 
to observe the crowd.
    Mr. Lomax. Correct.
    Mr. Kraska. Most police departments that handle civil 
protests correctly know that the last thing you want to do is 
instigate. There was just a wonderful article written in the 
Washington Post that interviewed a whole bunch of chiefs of 
police that understand this and how you sit back and you do not 
antagonize and you certainly do not display this level of 
weaponry.
    If I might, I will just throw out a one quick speculation, 
and I am willing to speculate before the DOJ report comes out. 
I think what you saw was a high level of fear of victimization 
among the police, and it is a huge cultural issue right now in 
policing where so many for-profit training groups and training 
academies are teaching this survivalist warrior mentality.
    You never know whether the next person is going to kill you 
and you have to go home at night, so you take every possible 
precaution you can. Well, all of that sounds wonderful, but it 
does lead to an intense fear of the other, of those people, of 
the community you are serving, and I think----
    Senator McCaskill. And there had been looting on Sunday 
night and they burned down a store. I mean, let us be fair 
here. It was not like that this activity was completely lawful. 
There was a lot of unlawful activity that I think really--it 
shook the bones of the law enforcement community in this area, 
that they would have that kind of lawlessness. So that is 
something that we have--to be very fair, we have to factor that 
into their response.
    Mr. Kraska. Absolutely, but I would have to say you have to 
look at the situation. Look at Hurricane Katrina where the 
initial response from FEMA was not what has been traditionally 
done in this great country, which is humanitarian aid. The 
initial response from FEMA, under the Department of Homeland 
Security, was, this is a security threat, and they spent three, 
almost four full days supposedly securing the area, later of 
which we found out was false, that there was not an area to 
secure.
    People were in dire need of help. Securing the area before 
they gave humanitarian aid. That is the kind of mentality I am 
talking about. It is a security first, aid second mindset, 
which is also what our good friend said down the table.
    Senator McCaskill. Right Did you have something you wanted 
to add, Mr. Price?
    Mr. Price. Yes. In the picture that you just showed, the 
distance between the police and the protesters was probably a 
hundred feet.\1\
---------------------------------------------------------------------------
    \1\ The pictures submitted by Senator McCaskill appear in the 
Appendix on page 233.
---------------------------------------------------------------------------
    Senator McCaskill. Very small.
    Mr. Price. Very small. So, I mean, when they were standing 
there, even when the police were shouting, it was like in that 
photo, you could clearly hear what everyone was saying from the 
police department as far as moving back, dispersing. So the use 
of a scope, even when that truck rolled up, all the 
photographers were looking around like, OK, what is this for? 
We began to think that there was something else going on behind 
the scenes that we did not know about. None of that took place.
    Senator McCaskill. You just assumed it was not for you?
    Mr. Price. Yes, exactly. And we were wondering, why the 
truck was there because, again, it brought up suspect that 
there was something going on that we did not know. Other 
photographers were questioning each other about what was going 
on. And this went on for 3 or 4 days.
    And again, the police aggravated peaceful marchers when 
they were just standing there chanting. Instead of just letting 
them chant, and you have them in a stationary environment, they 
moved them around, which irritated them. That is all they did.
    Senator McCaskill. Right. Well, I want to thank all of you 
for being here. We will follow up with another Subcommittee 
hearing, I am sure, on this subject as we--and I would 
certainly ask Mr. Bueermann and Mr. Lomax for you to begin 
working on what you think, based on your knowledge of the 
police community in this country, what would be reasonable 
changes in policy that would begin to get us back to a place 
where we have not done--where somebody, a young man who wants 
to grow up to be a police officer, thinks what he needs to get 
as part of his uniform is a hand grenade.
    Obviously, that is a problem. And I would like us to work 
on that together. We will continue to work with all of you who 
have come today. Certainly, the NAACP is part of this national 
discussion and obviously I am on the ground in Ferguson a lot 
trying to figure out how we navigate through a still very 
difficult road ahead as we figure out how to regain trust in 
that community with that police department.
    The great people of Ferguson deserve to have a police 
department that they feel comfortable with, and so, there is a 
lot of work yet to do.
    The hearing record will remain open for 15 days until 
September 24 at 5 p.m. for the submission of any other 
statements and any other questions for the record. If there is 
any information that you all would like to provide to the 
record, be sure and get it to us before then. We will remain in 
contact with you as we work on this problem. Thank you very 
much.
    [Whereupon, at 1:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              



                                 <all>
</pre></body></html>
